<html>
<title> - HOUSING OUR HEROES, AN EXAMINATION OF THE PROGRESS IN ENDING VETERANS' HOMELESSNESS</title>
<body><pre>[Senate Hearing 111-862]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-862

HOUSING OUR HEROES, AN EXAMINATION OF THE PROGRESS IN ENDING VETERANS' 
                              HOMELESSNESS

=======================================================================

                             JOINT HEARING

                               before the

 SUBCOMMITTEE ON TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND 
                            RELATED AGENCIES

                                AND THE

SUBCOMMITTEE ON MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED 
                                AGENCIES

                                 OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      MAY 20, 2010--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
  58-072 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
PATRICK J. LEAHY, Vermont            LAMAR ALEXANDER, Tennessee
TOM HARKIN, Iowa                     SUSAN COLLINS, Maine
DIANNE FEINSTEIN, California         GEORGE V. VOINOVICH, Ohio
TIM JOHNSON, South Dakota            THAD COCHRAN, Mississippi (ex 
FRANK R. LAUTENBERG, New Jersey          officio)
ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii, (ex 
    officio)

                           Professional Staff

                              Alex Keenan
                          Meaghan L. McCarthy
                             Rachel Milberg
                              Dabney Hegg
                         Jon Kamarck (Minority)
                        Ellen Beares (Minority)
                        Rachel Jones (Minority)

                         Administrative Support
                              Michael Bain
                                 ------                                

Subcommittee on Military Construction and Veterans Affairs, and Related 
                                Agencies

                  TIM JOHNSON, South Dakota, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
ROBERT C. BYRD, West Virginia        MITCH McCONNELL, Kentucky
PATTY MURRAY, Washington             SUSAN COLLINS, Maine
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
BEN NELSON, Nebraska                 THAD COCHRAN, Mississippi (ex 
MARK PRYOR, Arkansas                     officio)

                           Professional Staff

                            Christina Evans
                             Chad Schulken
                          Andrew Vanlandingham
                       Dennis Balkham (Minority)
                         Ben Hammond (Minority)

                         Administrative Support

                              Rachel Meyer
                         Katie Batte (Minority)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Patty Murray........................     1
HUD-VASH.........................................................     2
Fiscal Year 2011 HUD-VASH Vouchers...............................     3
Opening Statement of Senator Tim Johnson.........................     4
Opening Statement of Senator Christopher S. Bond.................     4
Elimination of HUD-VASH Program..................................     5
Opening Statement of Senator Kay Bailey Hutchison................     7
Statement of Senator Patrick J. Leahy............................     8
Statement of Hon. Eric K. Shinseki, Secretary, Department of 
  Veterans Affairs...............................................     9
Ending Homelessness Strategy.....................................    10
HUD-VASH.........................................................    11
Prepared Statement of Hon. Eric K. Shinseki......................    12
VA's Programs....................................................    12
VA-HUD Cooperation to End Veteran Homelessness...................    13
Challenges in Combatting Veteran Homelessness....................    15
The Way Ahead....................................................    15
Statement of Hon. Shaun Donovan, Secretary, Department of Housing 
  and Urban Development..........................................    17
Homeless Prevention and Rapid Re-housing Program (HPRP)..........    18
HUD-VASH.........................................................    18
Prepared Statement of Hon. Shaun Donovan.........................    19
Changing the Way We Combat Homelessness--HPRP and the 2011 HEARTH 
  Budget Request.................................................    20
Understanding the Nature and Scope of Homelessness...............    21
Making Veterans' Homelessness an Interagency Priority............    22
Barriers to Homelessness.........................................    25
Case Managers....................................................    27
Resources for Homeless Veterans..................................    28
Native American Volunteers.......................................    28
5-Year Plan (VA).................................................    29
Fiscal Year 2011 HUD-VASH Budget.................................    29
Homeless Prevention Resources....................................    31
Section 202 Elderly Housing......................................    31
Regulatory and Statutory Hurdles.................................    31
Additional Funding...............................................    32
Vermont Homeless Veterans........................................    32
Allocation Process...............................................    33
Project Rentals..................................................    33
Rural Areas and Housing First....................................    34
Project-based Voucher Pilot......................................    34
Cultural Change..................................................    35
Pilot Program on Homeless Vouchers...............................    35
Building Utilization Reuse and Review............................    36
Housing Options..................................................    36
Additional Committee Questions...................................    38
Questions Submitted to Hon. Eric K. Shinseki.....................    38
Questions Submitted by Senator George V. Voinovich...............    38
Statement of Barbara Poppe, Executive Director, U.S. Interagency 
  Council on Homelessness........................................    41
HUD-VASH.........................................................    42
Rapid Re-housing.................................................    43
Prepared Statement of Barbara Poppe..............................    43
Overview of Homelessness in the United States....................    44
Homelessness Among Veterans......................................    45
Interventions that Work..........................................    46
Public Comment and Engagement on Federal Strategic Plan..........    47
Statement of Stephen Norman, Executive Director, King County 
  Housing Authority, Seattle, Washington.........................    48
    Prepared Statement...........................................    51
Statement of Mike Brown, Assistant Program and Case Manager, 
  Corps of Recovery Discovery, Valley Residential Services, Walla 
  Walla, Washington..............................................    53
    Prepared Statement...........................................    54

 
HOUSING OUR HEROES, AN EXAMINATION OF THE PROGRESS IN ENDING VETERANS' 
                              HOMELESSNESS

                              ----------                              


                         THURSDAY, MAY 20, 2010

        U.S. Senate, Subcommittee on Transportation and 
            Housing and Urban Development, and Related 
            Agencies; and Subcommittee on Military 
            Construction and Veterans Affairs, and Related 
            Agencies,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Leahy, Johnson, Pryor, Bond, 
Hutchison, Brownback, and Murkowski.


               opening statement of senator patty murray


    Senator Murray. This subcommittee will come to order.
    This morning, we are holding a joint hearing with the 
Subcommittee on Military Construction and Veterans Affairs, and 
I want to thank Chairman Johnson, who is the chairman, along 
with Ranking Member Hutchison, as well as my own ranking 
member, Senator Bond, for joining me here today and for being 
such great partners in the effort to end homelessness among our 
Nation's veterans.
    Every night, as many as 100,000 veterans experience 
homelessness. Many of these veterans have lived on the street 
for years and are plagued by significant challenges, such as 
mental illness and substance abuse. In order to heal and remain 
in stable housing, these veterans will need a great deal of 
support. But there is no question they have earned that 
support.
    At today's hearing, we have the opportunity to discuss how 
to provide our veterans with the services they need to be 
successful. I want to welcome VA Secretary Shinseki and HUD 
Secretary Donovan to discuss their efforts of the two 
departments in ending homelessness among the Nation's veterans.
    I also want to welcome our witnesses on the second panel, 
including, Barbara Poppe, Executive Director of the United 
States Interagency Council on Homelessness, who has been 
working to bring Federal agencies together to end homelessness.
    I also want to extend a welcome to Stephen Norman, the 
executive director of the King County Housing Authority from 
Washington State. He has done a lot to help place homeless 
veterans in housing, and I thank him for traveling all this way 
to provide some insight into the challenges and the successes 
he has seen locally.
    And finally, I want to especially welcome Mike Brown from 
Washington State. I am very honored that he is with us today to 
share his very own story of moving from a life of homelessness 
and addiction to one of independence. Mike has lived many of 
the challenges we are going to be talking about today and is 
now a case manager, providing assistance to homeless veterans 
who face the same daunting task of rebuilding their lives that 
he did.
    The road from homelessness to permanent, stable housing is 
not easy. But the good news is that we understand the solution.


                                hud-vash


    Over the past decade, we have gained a great deal of 
experience in successfully housing the chronically homeless, 
many of whom are veterans. There have been multiple studies 
published that demonstrated the effectiveness of the permanent 
supportive housing model in terms of improving outcomes for the 
chronically homeless and saving money for the taxpayer.
    The need for a solution for the veterans living on the 
street was why we restarted the HUD-VA Supportive Housing or 
HUD-VASH program 3 years ago. It was clear that we needed 
permanent housing and services for veterans if we were truly 
going to end homelessness among veterans.
    By bringing together HUD and the VA, we tapped into the 
expertise of both of these Federal departments to bring 
veterans the housing and services they need. And now, we can 
look to the experience of veterans using HUD-VASH as a measure 
of the program's success.
    Veterans like Terry Donscheski, a homeless veteran from 
Washington State who has been coping with addiction, who 
received a HUD-VASH voucher. He is now employed and in June 
will graduate from Walla Walla Community College with an 
associate's degree.
    Stories like those of Mike and Terry remind us that we can 
end homelessness for veterans. It simply requires the right 
tools and leadership.
    I want to commend Secretary Shinseki and Secretary Donovan 
for demonstrating the leadership and the commitment to ending 
homelessness among our Nation's veterans. We have a good start. 
There is still a great deal of work yet to be done.
    After years of talking about ending veterans' homelessness, 
the administration has set a goal and put forth a plan. 
However, it is not enough just to have a goal or a plan. Any 
plan must be implemented well and achieve results to be 
successful. It is imperative that these programs be run 
effectively. The taxpayers and the veterans that need these 
services deserve nothing less.
    At the outset of the resumption of the HUD-VASH program, 
the VA was slow to hire case managers, delaying assistance to 
veterans. And possibly more difficult was the challenge of 
instituting a new program and a new way of thinking at dozens 
of VA medical centers across the country.
    Relationships had to be built in many communities between 
housing authorities and the VA. In some cases, old program 
rules and comfort with the usual way of doing business in each 
program impeded effective collaboration. This resulted in 
delays in getting veterans off the street and into housing.
    While we have made progress since the program began in 
2008, challenges persist. I remain concerned about the low 
leasing levels. Only 25 percent of the vouchers from 2009 are 
now in use housing veterans.
    HUD and the VA must impose performance measurement for PHAs 
and VA medical centers that hold them accountable for their 
ability to use these vouchers well. This includes targeting the 
veterans most in need; fostering partnerships on the local 
level not only with each other, but with homeless providers in 
the community; reducing the time it takes to get veterans into 
housing; and ensuring the long-term success of veterans.
    These challenges have been identified and solutions have 
been suggested. Now it is time to get to work to implement 
solutions. Increasing the supply of permanent supportive 
housing for our neediest veterans is central to achieving the 
goal of ending homelessness among veterans within 5 years.


                   fiscal year 2011 hud-vash vouchers


    I think HUD-VASH is a key tool to achieving this goal. So I 
was both surprised and disappointed that no funding was 
included in the President's fiscal year 2011 budget for new 
HUD-VASH vouchers. I agree we need to make improvements to this 
program, but I don't think halting the program for a year is 
the answer.
    Many of these veterans have lived on the street for years. 
They should not have to wait any longer, not when we know what 
works. As we continue to work to end homelessness for those 
veterans that have been homeless for years, or even decades, we 
can't ignore the many challenges facing returning veterans.
    Many have significant wounds from recent conflicts, both 
physical and emotional. And all of them are returning to an 
economic climate with limited job opportunities. Last year, one 
in five young veterans returning from Iraq and Afghanistan was 
unemployed.
    We must stay focused on this population and address their 
challenges early. Many of these new veterans home from war are 
at risk of homelessness, and sadly, some have already begun to 
appear at our homeless shelters.
    As we work to address these needs, we must also be aware 
that many of these veterans have different needs than earlier 
generations of veterans. There are an increasing number of 
female veterans and veterans with families. The changing face 
of our veteran population requires that we change practices at 
the VA to meet these needs. We will only be successful if we 
have the appropriate tools to meet veterans where they are.
    If we are going to avoid the mistakes that we made with 
veterans of prior wars, we needed to identify those most at 
risk of homelessness early and work on prevention strategies. 
That includes ensuring access to medical care, affordable 
housing, and education and jobs.
    Our two subcommittees pushed for increased efforts around 
prevention by funding a pilot program in 2009 to examine how to 
prevent veteran homelessness, particularly among those now 
returning from overseas. And I am pleased to see that the 
administration has brought greater focus to prevention.
    So I look forward to today's hearing from all of our 
witnesses on how we can use all of these strategies--from 
prevention to permanent supportive housing--to achieve the goal 
of ending homelessness in 5 years.
    With that, I will turn it over to Chairman Johnson for his 
statement.


                opening statement of senator tim johnson


    Senator Johnson. Thank you, Madam Chairman, and thank you 
for holding this joint hearing.
    Let me start by welcoming Secretary Shinseki and Secretary 
Donovan before this subcommittee. Two years ago, these two 
subcommittees held a joint hearing to discuss this same issue 
and hear from the two departments on how they are working 
together to tackle this problem.
    There is still a long ways to go, but according to the VA, 
the homeless rate among vets has dropped from 154,000 in 2008 
to 107,000 at the end of 2009. Nevertheless, in South Dakota 
alone, there remain an estimated 740 homeless vets. One 
homeless vet is too many; 107,000 homeless vets is a tragedy.
    As chairman of the MilCon/VA Appropriations Subcommittee, I 
have had an opportunity to meet with Secretary Shinseki and 
Secretary Donovan often. And I am very impressed by their 
commitment to ending homelessness among veterans. Working 
together, I believe that the VA and HUD can make a difference 
in the lives of homeless vets.
    The HUD-VASH program is an important gateway to making this 
difference. I appreciate the effort that both of our witnesses 
are devoting to this effort, and I look forward to their 
testimony.
    I would like to mention that our colleague Senator Jack 
Reed wanted to be here today, but he is chairing a Banking 
Subcommittee hearing. Senator Reed has been a leader on vet 
issues and has introduced legislation which I am proud to 
cosponsor to improve many of the existing programs we are 
discussing today.
    Thank you, Madam Chairman.
    Senator Murray. Thank you, Senator Johnson.
    Senator Bond, your statement.


            opening statement of senator christopher s. bond


    Senator Bond. Thank you very much, Madam Chair.
    I am delighted to join you, Chairman Johnson and Senator 
Hutchison in welcoming Secretary Donovan and Secretary Shinseki 
to talk about the HUD-VASH program, the collaborative program 
in which HUD provides permanent housing for homeless veterans 
through section 8 and VA provides needed supportive service for 
veterans. That is a vitally important link, and we thank you 
for what you are doing.
    We look forward to the second panel, and Ms. Poppe, Mr. 
Norman, Mr. Brown, the latter two being constituents of the 
chair, had a long way to come. We appreciate your coming here 
from Washington.
    But as noted, this hearing is to determine the current 
status of the HUD-VASH program, which has been designed, as 
said, as a joint enterprise between VA and HUD. Now my view is 
we owe all veterans special thanks. As members of the military, 
they have been on the front line in the defense of freedom and 
our way of life. No harder job than serving in the military, 
and I can't think of a more worthwhile goal for those of us in 
Congress than commit both the needed funds, the strategy, and 
deliver the programs that will ensure there is a safety net to 
avoid the pitfalls of homelessness for veterans and meeting 
their needs as well.
    There is not always an easy transition for a veteran to 
merge back into normal American life, but we owe them every 
opportunity to make that transition successfully.


                    elimination of hud-vash program


    The VASH program was implemented in 1992 but faded under 
bureaucratic malaise. Working with members of the MilCon/VA 
Appropriations Subcommittee, Senator Murray and I provided 
funding for the section 8 certificates, a set-aside of $75 
million in fiscal year 2008 through fiscal year 2010. And we 
are looking at the question of whether to fund it again, 
despite the fact the administration chose to zero out funding 
of the program.
    I cannot understand why the administration chose to 
eliminate the HUD-VASH program in fiscal year 2011. It is a 
pivotal question, and I don't know what the answer is. It is 
not enough that the program does not attain maximum or best 
use. If there is a problem, the administration and Congress 
need to understand the problem and fix it.
    Most of the programs at HUD, to be quite frank, already 
have problems, or they have had. That is nothing unusual. The 
Secretary knows that. He has found that out.
    But this program is too important to our veterans to push 
aside for another day or in order to fund another initiative. 
In my view, HUD has too many new and expensive initiatives now, 
and none are as important as finding the right solution for 
assisting homeless veterans or even risking the funding for 
HUD's core programs, which are the housing safety net for low-
income and very low-income families.
    And I would say that we are going to have a very difficult 
time this year in the THUD Subcommittee, Madam Chair, with all 
of the requests coming in for transportation, the growing costs 
of the essential vital core programs. And my view is we must 
fund those who depend upon this program to get the housing 
assistance they need, whether it is section 8, public housing, 
202, 811, that has to be our first priority above everything 
else.
    A lot of other things we would like to do, a lot of good 
ideas, but that--those things are critical, and of those 
critical programs, HUD-VASH program is right at the top. And if 
you were successful zero funding this program for a year, we 
all know what happens when you don't fund a program for a year. 
There are a lot of dedicated individuals working out in the 
real world where we live, and some working here in Washington 
on the program that have to find other jobs, and they do. And 
you lose a vital infrastructure.
    So it makes no sense. If there is any kind of priority on 
this program at all, it makes no sense zero funding. And I 
believe that the four of us here today are committed to making 
sure there is funding.
    I am told that the VA is committed to eliminating 
homelessness among veterans within 5 years, and I know that the 
two Secretaries before us are working hard to find the 
solution. But without the necessary funding or evolution of 
existing programs, especially for a program like HUD-VASH, I 
don't see us getting anywhere. I see us spinning our wheels.
    Even more troubling, I understand that the HUD-VASH program 
is held in high esteem by veterans and veterans groups, that it 
is the right approach or strategy in many or even most cases, 
that permanent housing is key to providing a stable environment 
for homeless veterans, when coupled with innovative VA 
supportive services, which, Secretary Shinseki, are absolutely 
essential.
    In fact, HUD-VASH is unique among programs for homeless 
veterans in that it focuses not just on the veteran, but rather 
on the veteran and his or her family, including counseling and 
other supportive services on what is needed to be a healthy and 
functioning family unit. In most or all VA programs, the 
veterans are the sole focus, with family uninvolved in 
counseling programs.
    But we have seen in watching all of the challenges faced by 
returning service members that very often, the challenges--
family is a support group. But the family also may have some 
problems, and we need to make sure that the family unit of the 
returning veteran is well served to make sure that everybody 
involved in the family can handle it.
    So what we are here today to learn is what is working well, 
what is not working well even beyond the HUD-VASH program. For 
example, what jurisdictions have good programs? What 
jurisdictions have problems with VASH? What are the problems? 
What do we do to provide all jurisdictions with the tools they 
need to be successful?
    I know that not all jurisdictions have the same set of 
issues, but we have to start with at least a best practices 
approach and grow success from there. That means continuing the 
VASH program and growing it.
    Secretary Donovan, I need to make one final point, 
especially with reference to HUD. As I have said earlier, we 
need to support the core HUD programs that are part of the 
safety net for low and very low-income families, not try to 
implement a new program or idea a day, especially with the 
current budget recommendations, the potential huge out-year 
costs.
    I have mentioned the budget squeeze we are going to have in 
this program just to do that with all of the competing demands 
and an expected low budget allocation. But once we get the 
costs of current HUD programs like section 8 under better 
control and fix issues with other core programs like section 
202 elderly housing, section 811 housing for persons with 
disabilities, then we can take a look at aggressive new 
programs and reforms.
    I understand from the HUD staff comments that 90 percent of 
the section 202 elderly housing delivery programs can be solved 
through regulatory reform. Why HUD has not completed these 
reforms is a mystery to me, since I expect and believe we all 
want the program to work efficiently and provide the needed 
housing for seniors as quickly as possible.
    Mr. Secretary, I will have some questions and suggestions 
on regulatory reform. We stand ready to work if there are 
legislative impediments. But when the problem is a regulatory 
structure within HUD, we expect you, Mr. Secretary, to work it.
    I know every Secretary at HUD wants to leave a mark, and 
many of your ideas, like Choice Neighborhoods, have great 
merit. But making HUD work with a better viable and useful IT 
system would be a brilliant accomplishment in itself. But I 
question the effort to focus your legacy through new programs, 
even recently announcing a rebirth of the Neighborhood 
Stabilization Program Part 3.
    We in Congress still don't know the criteria used to fund 
NSP 2, which seemed to be California and Florida only, while 
the new program would be funded through recaptures. The press 
release that came out I guess last week also infers new funding 
will be needed or expected.
    I have got a minimum amount of high enthusiasm until I see 
what the criteria are and how the other priorities will be met. 
The funding approach to say that we can start new programs is 
pure Alice in Wonderland, where we hear one day the 
administration wants to spend billions of dollars on its 
constituents and, on the other hand, warns that the resulting 
huge deficits may prove disastrous in the near future.
    As you know, the CBO re-estimated that the President's 
budget would add some $8.5 trillion to the national debt by 
2020, with a deficit of about $1.5 billion in this fiscal year 
and another $1.3 billion in fiscal year 2011. And CBO projects 
that the national debt will balloon to some 90 percent of the 
economy by 2020, while interest payments on the debt will soar 
by $800 billion over the same period. And that is assuming that 
our major lenders like China will continue to loan to us at low 
interest rates when they see that we are on a spending program 
like Greece's.
    We are drowning in debt, and buying our way out is not 
working. I urge you to think hard about what your and other 
agencies' funding requests will mean to the Nation. As we 
continue to pay off banks who give huge bonuses to their risk-
inclined employees, we could well end up only with an upper 
class and a lower class. I don't think any of us want that.
    So, Madam Chair, Chairman Johnson, my colleague Senator 
Hutchison, I thank you.
    Senator Murray. Thank you, Senator Bond.
    Senator Hutchison.


           opening statement of senator kay bailey hutchison


    Senator Hutchison. Well, thank you, Chairman Murray, 
Chairman Johnson and Senator Bond.
    I am very pleased to be here and to look at the major issue 
of homeless veterans. As has been mentioned, 107,000 are on the 
list of homeless veterans, but up to twice that number were 
homeless at some point last year. So that is not a statistic 
that we can allow to stand.
    I appreciate that Senator Bond has gone into some detail 
about the program not having the priority that it has had in 
the past, and I think that, working together, our two 
subcommittees can certainly rectify that situation.
    I think it is worth noting that 90 percent of the veterans 
who have sought services from the VA through a specific 
homeless program have some type of medical issue, namely, 
mental health or substance abuse disorders. This is 
particularly true for veterans who are chronically homeless.
    It is alarming to imagine a correlation between mental 
health disorders and homelessness, especially when the 
signature wounds of the wars in Iraq and Afghanistan are post 
traumatic stress disorder and traumatic brain injury. That 
tells me we must work to address this problem now before it 
gets worse.
    Equally alarming is the fact that women are the fastest-
growing group of homeless veterans, now comprising roughly 5 
percent of our Nation's 107,000 homeless veterans. The face of 
our military is changing, and women are serving in greater 
numbers than ever before.
    Tragically, some of these women veterans who are homeless 
are also victims of military sexual trauma, mental health, or 
substance abuse disorders. Without treatment and supportive 
services, these conditions can and will contribute to 
homelessness among women veterans.
    So ending this problem is certainly a big goal, but I am 
very pleased that both the Secretary of Housing and Urban 
Development and the Secretary of Veterans Affairs are going to 
take an active role in working together as we, in Congress, 
will certainly work with you to address the problem.
    I will tell you now that I will have to miss the second 
panel because of the President of Mexico addressing the joint 
session, but I will certainly look at the testimony and look 
forward to hearing from our two witnesses.
    Thank you.
    Senator Murray. Thank you very much.
    Senator Pryor, do you have an opening statement?
    Senator Pryor. No.
    Senator Murray. Senator Murkowski, do you have an opening 
statement?
    Senator Murkowski. Thank you, Madam Chairman.
    You said opening statement, as opposed to questions? We are 
not into the questions yet?
    Senator Murray. Yes. We are not there yet.
    Senator Murkowski. I will defer until we have an 
opportunity for questions then.
    Senator Murray. Very good. Senator Leahy, do you have any 
opening remarks?


                 statement of senator patrick j. leahy


    Senator Leahy. I will have questions. Especially on the 
question of homeless veterans, Madam Chair, Vermont now has on 
a per capita basis the largest number of troops overseas, and 
we find that on homeless vouchers, we have been cut down to 15 
for the whole State from 55. And it is frustrating in Vermont 
because when we have in our little State 1,200 to 1,400 
soldiers in harm's way, plus all the other aspects of our 
veterans, 15 is not going to do it.
    And I say that, I know General Shinseki has shown more 
energy and more concern on veterans issues than we have seen in 
forever, as does--if I may take a personal note, as does Mrs. 
Shinseki in her meetings, and I appreciate that. And I know the 
concerns that Secretary Donovan has.
    But as we go forward to mark-up, that is going to be an 
area of concern for Vermont.
    Senator Murray. Well, thank you very much.
    And again, we are delighted to have two Secretaries with us 
this morning and two very important agencies. We will begin 
with Secretary Shinseki and then turn to Secretary Donovan 
before we do questions, Secretary.
STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY, 
            DEPARTMENT OF VETERANS AFFAIRS
    Secretary Shinseki. Good morning. Thank you, Chairwoman 
Murray, Chairman Johnson, Ranking Members Bond and Hutchison, 
other distinguished members of the subcommittee.
    Thank you for this opportunity to discuss veterans' 
homelessness in that regard and the important collaboration 
that is under way between these two departments, as you have 
indicated, Veterans Affairs and Housing and Urban Development 
and our commitment to end veterans' homelessness within 5 
years.
    It is my pleasure to be testifying with Secretary Shaun 
Donovan this morning. His leadership and his vision have been 
critical to providing housing for thousands of Americans, and 
many of them are veterans.
    I would like to acknowledge the representatives from some 
of our veteran services organizations who are here today. They 
have shared their insights certainly with me, and with VA, as 
we developed this 5-year plan and helped us to understand how 
to meet those obligations to all veterans.
    Chairman Murray, Chairman Johnson, I do have a written 
statement, which I ask to be entered into the record.
    Senator Murray. Your statement will be put in the record.
    Secretary Shinseki. Thank you.
    Caring for those who cannot care for themselves is a 
longstanding tradition in this country. It is these threads of 
selflessness I think are woven into our national character. Our 
Nation's veterans, who come from every town and village in this 
great land, are a vital part of that fabric.
    In honoring their service, VA is keeping faith with the 
words of Abraham Lincoln from the century before last in which 
the promise was made to care for those who have borne the 
battle and for their families. And nowhere is our obligation to 
them more important, more visible, and more necessary than in 
our efforts to end veteran homelessness.
    We have made significant progress in this critical task. I 
would point out that 6 years ago, 195,000 homeless veterans 
lived on the streets of our country. Today, that estimate is 
107,000. Much of the progress is due to VA's collaborative 
work, specifically with the Department of Housing and Urban 
Development, but with other departments and agencies as well, 
among them Labor, Education, Health and Human Services, as well 
as with State and local governments and then, finally, with 
those very important community organizations in all of your 
home States and districts and community organizations with whom 
we partner and who are, in my opinion, the real creative 
geniuses here in saving the homeless.
    VA's record in this area, I am confident, is strong. For 
over 20 years, we have provided street outreach, residential 
and transitional housing services, vocational rehabilitation, 
access to primary and mental healthcare, counseling for 
substance abuse, and assistance with benefits to those who 
qualify. We have invested $500 million on specific homeless 
programs this year alone. We are moving in the right direction, 
but I think we all agree there is more work to be done.


                      ending homelessness strategy


    VA's strategy for ending homelessness emphasizes prevention 
and seeks to ensure that there is no wrong door for a veteran 
in need of help. Veterans seeking to avoid or escape from 
homelessness must have ready access to our existing programs 
and services, regardless of which facility, or which door they 
choose to open.
    That door could be a medical center. It could be a regional 
office. It could be a vet center or one of those community 
organizations in their hometowns. Those doors should be open. 
They should be welcoming, and they should be capable of 
helping.
    VA is expanding its existing programs and developing new 
initiatives to prevent veterans from becoming homeless and to 
help those who are homeless by providing more housing, 
increasing access to healthcare and benefits, enhancing 
employment opportunities, and creating residential stability.
    This expansion will begin in fiscal year 2011 and continue 
through 2014, where we intend to meet our objectives, subject, 
again, to the availability of appropriations in those future 
years. Specifically, we have written a plan that intends to do 
that and outline what resources would be required. 
Specifically, we intend to increase the number and variety of 
housing options, provide more supportive services through 
partnerships, and improve access to mental health, substance 
abuse, and support services.
    Over the next 5 years, our focus on ending veterans' 
homelessness is built upon six strategic pillars. The first is 
education--reaching out and educating veterans about our 
programs, what is available to them and getting them to take 
advantage of it, both the homeless and those at risk of 
becoming homeless.
    Second, ensuring treatment options are available for 
primary, specialty, and especially, as mentioned earlier, 
mental healthcare.
    Third, strengthening our strategy for preventing 
homelessness, the key here is prevention is a lot more 
efficient and easier to do than trying to recover at the far 
end. The key to our long-term efforts is prevention.
    Fourth, increasing housing opportunities and providing 
appropriate supportive services more tailored to the needs of 
veterans.
    Fifth, providing greater financial and employment support, 
as well as improved benefits delivery.
    And finally, expanding our critically important community 
partnerships, our success in this venture is not possible 
without them.


                                hud-vash


    While VA has multiple options for housing veterans, the 
most effective option is HUD-VASH; HUD-VA Supportive Housing, 
HUD-VASH, and the Nation's largest housing initiative for 
veterans. As of April 30, roughly 19,000 of the 20,000 HUD-VASH 
vouchers that were assigned in previous budgets have been 
assigned to veterans, and of these, 13,000 veterans are already 
in housing, no longer homeless. The remaining 7,000 are in 
search for housing and expect to be housed before the end of 
the year and permanently housed before the end of the year.
    HUD-VASH targets the chronically homeless veterans who are 
hard to serve, those who may have refused care in the past and 
those who may have failed to complete previous programs, also 
those who have a history of disruptive behaviors or who do not 
fit easily into the existing programs. Ending veterans' 
homelessness requires us to find ways of helping especially 
these chronic homeless veterans.
    We are also changing our approach to addressing 
homelessness and its relation to substance abuse. HUD-VASH 
allows substance abuse disorder specialists to better support 
homeless veterans and those in transition to housing with 
consistent, therapeutic relationships.
    VA partners with thousands of community and faith-based 
nonprofit service providers, which include not only some of the 
Nation's largest, like Volunteers of America, Catholic 
Charities, and the Salvation Army, but also many excellent 
smaller local groups in towns and cities all across the 
country.
    VA is a member of and fully engaged with the U.S. 
Interagency Council on Homelessness, currently chaired by 
Secretary Donovan, which has just crafted a plan to take down a 
wide range of barriers to ending homelessness. To achieve VA's 
objective of ending veteran homelessness in 5 years, we must 
collaborate closely with HUD and with other members of the 
Interagency Council on Homelessness, with members of this 
subcommittee, as well as the hundreds of stakeholders who have 
seized the initiative regarding veterans' homelessness.
    America's veterans experience among the highest rates of 
depression, substance abuse, and unemployment creating a kind 
of perfect storm to that downward spiral that all too often 
ends in homelessness and sometimes in suicide. The President's 
2011 budget and 2012 advanced appropriation requests enable us 
to break that downward spiral.


                           prepared statement


    With your help, the time to end veteran homelessness is 
now. We owe every man and woman who has worn the Nation's 
military uniforms a level of courage and determination that 
matches theirs.
    Once again, thank you for the opportunity to appear today, 
and I look to your questions.
    [The statement follows:]
              Prepared Statement of Hon. Eric K. Shinseki
    Chairman Johnson and Chairman Murray; Ranking Member Hutchison and 
Ranking Member Bond; Distinguished Members of the Senate Committee on 
Appropriations: Thank you for this opportunity to appear with Secretary 
Donovan to discuss the Department of Veterans Affairs' (VA) efforts and 
our good works together to end homelessness among our Nation's 
veterans. I am proud to sit with Secretary Donovan, whose leadership 
has been critical in helping thousands of Americans secure permanent 
housing--many of them veterans.
    Homelessness among our veterans is a tragedy. While there has been 
progress over the last several decades to address this critical 
problem, some veterans still sleep on the streets. Over the past 23 
years, the number and percentage of our veterans in the homeless 
population has gone down dramatically, but our job is far from 
finished. Data suggest that the number of homeless veterans continues 
to decline because of the aggressive efforts by VA and its partners, 
including local and community organizations as well as State and 
Federal programs. Six years ago, on any given night, there were 195,000 
homeless veterans; today, there are approximately 107,000. We recognize 
that VA and HUD provide different estimates of the number of homeless 
veterans. The disparity between our estimates is based on methods of 
data collection and the timeframe in which the data was reported. Our 
departments are in the process of finalizing a plan to produce a single 
national estimate of homeless veterans, and we expect to implement that 
plan in fiscal year 2011.
    VA has a strong track record in decreasing the number of homeless 
veterans. A study completed several years ago found approximately 80 
percent of veterans who complete a VA program are appropriately housed, 
many with employment or income support, just 1 year after treatment. 
This year, we are investing $500 million on specific homeless housing 
programs. We are also investing an additional $50 million in our 2010 
minor construction program, with funds specifically provided by this 
subcommittee, to renovate VA properties and to provide housing and 
supportive services for homeless veterans. We are moving in the right 
direction, but, again, we have more work to do.
    This statement describes VA's programs to end homelessness, 
including VA's work with HUD to provide permanent supportive housing to 
veterans, identifies some of the challenges we have encountered in 
combating veteran homelessness and our proposals to address them, and 
concludes by defining the way ahead.
                             va's programs
    Effectively addressing homelessness requires breaking the downward 
spiral that leads veterans into homelessness. VA programs constitute 
the country's largest integrated network of homeless treatment and 
critical assistance services for veterans. These programs provide a 
continuum of care including treatment, rehabilitation, and supportive 
services that assist homeless veterans in addressing health, mental 
health and psychosocial issues. VA also offers a full range of support 
necessary to end the cycle of homelessness by providing education, 
claims assistance, jobs, and healthcare, in addition to safe housing.
    Additionally, VA works with a full range of partners to support a 
diverse number of programs, including the Grant and Per Diem (GPD) 
Program, the Health Care for Homeless Veterans Program, the Health Care 
for Re-entry Veterans Program, and the Mental Health Residential 
Rehabilitation Treatment Programs.
    Our strategy for ending homelessness is to create a collaborative 
approach to treatment and care while ensuring there is ``no wrong 
door'' for any veteran seeking service--all veterans seeking to avoid 
or escape from homelessness must have easy access to programs and 
services. Any door a veteran seeks--a medical center, a regional 
office, or a community organization--must be capable of offering them 
assistance.
    VA is expanding programs and developing new initiatives to help 
prevent veterans from becoming homeless and to aggressively help those 
who are by providing housing, increasing access to healthcare and 
benefits, enhancing employment opportunities, and creating greater 
residential stability. Specifically, we will:
  --Increase all types of housing options--permanent, transitional, 
        contracted, community-operated, and VA-operated;
  --Develop more partnerships to prevent homelessness, improve 
        employability, and increase independent living for veterans; 
        and
  --Improve access to VA and community based mental health, substance 
        abuse, and support services.
    VA is determined to end veterans' homelessness in the next 5 years 
while weighing the cost of our homeless initiatives against other 
priorities in 2012 and in the out years. Our plan to end veterans' 
homelessness is built on six strategic pillars:
  --Reaching out to and educating homeless veterans and those at risk 
        about our programs;
  --Ensuring treatment options are available for primary, specialty, 
        and mental healthcare, including care for substance use 
        disorders;
  --Strengthening our strategy for preventing homelessness, key to our 
        long-term efforts;
  --Increasing housing opportunities and providing appropriate 
        supportive services tailored to veterans' needs;
  --Providing greater financial and employment support to veterans, as 
        well as improved benefits delivery;
  --And, finally, expanding our critical community partnerships--
        success in this venture is impossible without them.
             va-hud cooperation to end veteran homelessness
    While VA has many options for providing veterans with housing 
assistance, a critical piece of these efforts is the innovative HUD-VA 
Supportive Housing (HUD-VASH) program. This program is the Nation's 
largest permanent housing initiative for veterans. It is critical to 
our efforts to end veteran homelessness.
    The HUD-VASH program began in 1992 at 19 VA medical centers (VAMC); 
nearly 600 vouchers were issued. In 1994, 10 additional sites were 
added, and 8 of the original program sites received approximately 600 
more vouchers. In 1995, 6 new sites were added and 9 existing programs 
were given an additional 600 vouchers. Through the end of 1995, 34 HUD-
VASH programs were funded. Over time, the HUD-VASH program continued to 
operate and the number of original HUD-VASH program vouchers dwindled.
    In 2008, Congress created a new version of HUD-VASH that was more 
responsive to the needs of chronically homeless veterans. The funding 
was available in March 2008 to begin the hiring process for VA case 
managers. Ten thousand vouchers were available in June of that year. In 
2009, Congress funded another 10,000 vouchers and HUD distributed these 
to PHAs between September and November 2009. In 2010, Congress funded 
an additional 10,000 vouchers. We expect these vouchers will be 
available to PHAs in June 2010.
    In September 2008, 929 veterans had been issued vouchers and 321 of 
them were under lease. Currently, approximately 19,000 veterans have 
been issued vouchers and nearly 13,000 veterans have been housed 
through the HUD-VASH program. The remaining 6,000 are in the housing 
search process. Over 20,000 veterans are actively engaged in HUD-VASH 
and are receiving case management services. VA and HUD monitor the 
placement of veterans into HUD-VASH on a monthly basis. The current 
placement rate for fiscal year 2010 averages 812 veterans per month. VA 
now provides case management services at 1 or more HUD-VASH programs in 
all 50 States, the District of Columbia, Puerto Rico and Guam.
Voucher Distribution
    VA and HUD utilize a collaborative process to determine voucher 
distribution. We distribute vouchers based on data-driven, population 
and need-based information, as well as on the past performance of VA 
medical centers and Public Housing Authorities (PHA). Data used include 
the Community Homeless Assessment, Local Education and Networking Group 
(CHALENG) report, the Northeast Program Evaluation Center (NEPEC) 
reports, and, predominately, HUD's Continuum of Care data from its 
``Point in Time'' surveys. We also take rural sites into consideration 
where homelessness is harder to detect and fewer resources are 
available. The Departments meet frequently to determine the optimal 
voucher distribution, and we endeavor to speed the delivery of vouchers 
for veterans' use.
    Once HUD has made the final determination related to the allocation 
of the vouchers, VA works to make them available to homeless veterans 
and focuses on hiring clinical staff to support them. VA staff and 
community partners conduct outreach to veterans through community 
homeless service providers, shelters, and other groups who know how to 
reach veterans who may need HUD-VASH. Homeless veterans are screened to 
determine veteran status and eligibility for VA healthcare. To 
participate in the HUD-VASH program, our veterans must: (1) be 
homeless, (2) be eligible for VA healthcare, (3) require and agree to 
receive case management services, and (4) be able to live independently 
in the community, as defined by proficiency at activities of daily 
living (ADLs)--such as the ability to dress, pay bills, obtain food, 
cook, and complete other activities of daily living. Veterans that meet 
the VA's eligibility criteria are then referred to the PHA for a 
determination of eligibility for the voucher program. The PHA screens 
only for income eligibility and listing on a lifetime listing on a 
State sex offender registration program. If found eligible, the PHA 
issues a voucher to the veteran and the veteran has at least 120 days 
to find a suitable unit. Veterans who meet these criteria are admitted 
to the program. Once a voucher is issued, veterans have 120 days to 
obtain a lease. The PHA can grant an extension, if needed.
    VA case managers work with veterans accepted into the program to 
begin completing requirements for the PHA application while ensuring 
the veteran is connected to VA healthcare and other VA and non-VA 
services. Veterans may need help for a variety of different issues. 
Barriers to placement include limited or no income, which impacts the 
veteran's ability to pay security deposits, utility deposits and other 
up-front costs not covered by the housing voucher. Additionally, case 
managers assist veterans who suffer from poor credit histories, issues 
involving child support obligations, and those who come from 
communities with a shortage of available housing.
Comprehensive Care Management Services
    The HUD-VASH comprehensive case management program provides a wide 
range of supportive services, including emotional support, substance 
abuse counseling, housing search assistance, money management services, 
and referrals to appropriate mental health and medical care. Once a 
veteran has been admitted to HUD-VASH, his or her case manager provides 
a psychosocial assessment and a case management and housing service 
plan.
    Case managers work closely with veterans to assist them with 
preparation for their meeting with the PHA. This includes ensuring that 
the veterans fill out the PHA application correctly, that they have the 
required documentation and a confirmed PHA appointment, and 
accompanying veterans to the appointments.
    Case managers assist our veterans in moving into their new units by 
coordinating the planning process and providing referrals for furniture 
and other needs. The needs of the veteran determine the role of a case 
manager, but a typical case manager's duties will require him or her 
to:
  --Maintain frequent contact with veterans and families after they 
        move into their housing, often a difficult transition; the case 
        manager provides a bridge of support from homelessness to 
        housing and works to sustain veterans in their housing.
  --Encourage those veterans who have been resistant to mental health, 
        substance abuse, or healthcare treatment to reconsider entering 
        an outpatient program, to see a healthcare provider, or to 
        establish goals that will help them stay in housing.
  --Work with the veteran on recovery goals--developing meaningful 
        social connections and reconnecting with family and friends to 
        aide in social engagement and prevent isolation.
  --Provide regular home visits to check on the veteran's stability--
        physical and mental health status, payment of bills, household 
        responsibilities, and overall adaptation to the new 
        environment.
  --Meet and assist the veteran at other places in the community, such 
        as the veteran's place of employment or a benefits office.
  --Provide problem solving strategies.
  --Provide crisis management for veterans and families.
  --Accompany the veteran to court, when necessary.
  --Assist with resolving child support issues.
    Case managers assist veterans who do not have income by helping 
with applications for appropriate benefits, job training or other 
employment assistance programs. For our veterans with no income, the 
case manager assists by locating funding sources that may provide 
temporary assistance for critical needs. After employment, case 
managers assist with establishing a bank account and financial 
responsibility.
    Some homeless veterans have immediate family members who are also 
homeless or living with family or friends. Case managers help the 
family to reunite and assist with resources to support the family--
referring family members to community providers who can assist with 
schools, child care, and mental health services.
    HUD-VASH serves many veterans with families and children. Nearly 11 
percent of all housing provided by HUD-VASH are provided to women 
veterans. And if current trends continue, by the time the first 20,000 
vouchers are occupied, nearly 4,000 children will be safely housed and 
living with their veteran parents, keeping families connected and 
intact.
             challenges in combatting veteran homelessness
    HUD-VASH Limitations.--The HUD-VASH section 8 voucher provides for 
rent, it only provides for shelter rent plus the tenant-paid utilities, 
except for telephone, cable and satellite television service, Internet 
service. However, there are necessary living expenses for deposits, 
furniture, and food that veterans need when they are initially housed. 
The solution to this challenge is to have shallow subsidies for initial 
housing start-up costs, provide employment or rapid job training 
programs, or provide streamlined benefits processes (both Social 
Security and VA benefits) for homeless veterans. Section 604 of the 
Veterans' Mental Health and Other Care Improvements Act of 2008, Public 
Law 110-387, authorizes VA to develop the Supported Services for 
Veteran Families (SSVF) Program, which will provide supportive services 
to very low-income veteran families in or transitioning to permanent 
housing, giving VA a mechanism to provide these important, shallow 
subsidies through private, non-profit organizations and consumer 
cooperatives which provide a range of support services designed to 
promote housing stability. The proposed regulation for this program was 
sent out for public comment, and input is due in June. We will publish 
the final regulation after staffing all input, and offer a notice of 
funding availability in 2011. The President's fiscal year 2011 budget 
request includes $50 million to administer this program. Once 
implemented, the SSVF program will address veteran families' needs--
including, where appropriate, costs associated with new housing.
    Through the SSVF Program, VA also works to prevent veterans with a 
high risk of becoming homeless from losing their housing. We work with 
grant receiving non-profits and consumer cooperatives to secure VA and 
other benefits including:
  --Healthcare services;
  --Daily living services;
  --Personal financial planning services;
  --Transportation services;
  --Fiduciary and payee services;
  --Legal services;
  --Child care services; and
  --Housing counseling services.
    In addition, grantees may also provide time-limited payments to 
third parties (landlords, utility companies, moving companies, and 
licensed child care providers) if these payments help veterans' 
families stay in or acquire sustainable, permanent housing.
    Poor Credit Histories.--Veterans with poor credit histories are 
often automatically turned away by landlords. Case managers frequently 
assist veterans with the process of credit restoration services and 
work with them during the initial contacts to begin addressing their 
poor credit.
    Substance Abuse and Mental Health Issues.--Homeless veterans often 
have serious substance use or mental health disorders. Both of these 
conditions compound or create significant health problems. Case 
managers can assist these veterans in entering treatment programs, and 
in developing strategies to find or retain housing if they choose not 
to enter treatment.
    Criminal Histories.--Many landlords refuse to rent to veterans with 
criminal records, a problem compounded when the record involves sex 
offenses. VA is committed to serving homeless and at-risk for homeless 
veterans, including those with criminal records. We demonstrated this 
commitment by supporting HUD's successful effort to reduce the number 
of justice-related disqualifiers for veterans seeking section 8 
vouchers through the HUD-VASH program. Also, VA's Health Care for Re-
entry Veterans and Veterans Justice Outreach programs provide outreach 
and linkage to clinical and other VA services for our veterans who have 
been subjects of the criminal justice system.
    Lack of Available Housing.--Some communities simply have a lack of 
affordable housing. Increasing mixed use developments and income-
dependent rents would greatly improve the ability of homeless persons 
to obtain affordable units, as would greater access to section 8 
subsidies. Section 8 subsidies will not impact the availability of 
affordable housing units as these vouchers will go unused if there is 
no housing that qualifies for such programs.
                             the way ahead
    VA is transforming its culture and attitudes to fit our programs to 
veterans, rather than trying to fit veterans into existing programs. 
Chronically homeless veterans are those who have been continuously 
homeless for at least 1 year or have experienced four or more episodes 
of homelessness in the past 3 years, and have a disability. Among these 
veterans are those with more serious mental illnesses, substance use 
disorders, or other disqualifying factors that may have labeled them 
``non-compliant'' with treatment protocols or ``hard to serve'' in 
times past. They may have a history of refusing care, entering programs 
but failing to stay, being difficult to place in treatment due to 
disruptive behaviors, or not fitting models of care provided by 
existing programs. VA will serve these veterans, as well, by achieving 
our goal of ending homelessness.
    We have greatly expanded the participation of homeless and formerly 
homeless veterans in our strategic planning through the Community 
Homelessness Assessment, Local Education and Networking Group (CHALENG) 
Program. In the past year, 10,701 homeless and formerly homeless 
veterans--a tenfold increase from 3 years ago--participated in CHALENG, 
sharing their experiences and perceptions of what VA needs to change in 
the delivery of effective homeless services.
    At every level, we are focusing on individualized treatment plans 
and allowing veterans who can do so effectively to prioritize goals for 
themselves. VA is working toward being a treatment partner rather than 
a treatment prescriber.
    The HUD-VASH program is a prime example of this reorientation, as 
indicated by its movement toward targeting chronically homeless, 
vulnerable veterans who are ``hard to serve'' and utilizing case 
management models with best practice outcomes. These approaches provide 
a low demand, low barrier strategy to engage the ``hard to serve'' 
population, allow the veteran to be the driver of care goals and to 
provide for basic needs while engaging them in strategies to sustain 
permanent housing.
    Substance use disorder treatment has also undergone significant 
change. VA national policy no longer requires a period of sobriety 
prior to entry to any of the VA programs, with the possible exception 
of Grant and Per Diem Programs, which follow the community providers' 
guidelines. However, VA continues to work to educate providers on this 
policy change. HUD-VASH is providing Substance Use Disorder Specialists 
to HUD-VASH teams to give support to veterans with substance use 
disorders. Addition of these specialists to the team enables the 
veteran to make changes toward sobriety in the environment in which 
they live. These specialists will also provide a link between Substance 
Use Treatment Programs and HUD-VASH to support transitioning veterans 
with a consistent, therapeutic relationship.
    The newly established Center on Homelessness Among Veterans is 
working with community providers and university affiliates to develop 
new treatment models to address both the causes and effects of 
homelessness and explore best-practices for specific homeless veteran 
populations, including those ``hard to serve.'' Additionally, the 
Center has developed training for VA staff as well as community 
provider staff to address the unique issues of working with this 
difficult to reach homeless veteran population. Some VAMCs have 
developed specialized clinics for ``hard to serve'' homeless veterans. 
These clinics are low-demand, low-barrier programs to deliver 
healthcare, mental health evaluations and social work strategies to 
begin to meet the basic and most important needs of these veterans--
food, shelter and safety.
    Developing contracts with the critical community partners who have 
developed national models to rapidly house vulnerable, chronically 
homeless veterans provides another route to more quickly and 
efficiently move our target population into housing with supportive 
services, but also provides new system designs VA can replicate. 
Dialogue with communities about their best practice methods provides VA 
with more strategies and fosters development of these important 
potential partnerships with the common goal of ending homelessness 
among veterans.
    One of VA's strongest traditional community partnerships has been 
its transitional housing program, the Grant and Per Diem (GPD) Program. 
This program currently has approximately 11,500 transitional housing 
beds. Since 2007, approximately 15.6 percent of projects receiving VA 
funds and 14.5 percent of the total funding through the GPD program 
were designed to help rural veterans, providing an additional 397 beds 
for homeless veterans. VA is currently reviewing two ``notices of 
funding availability'' that we expect will add more than 2,200 new 
units--including targets to increase opportunities for women and those 
residing on tribal lands. The application deadline was March 31, 2010. 
This program has served almost 100,000 veterans since it began, and we 
expect as many as 20,000 veterans will benefit from transitional 
housing in fiscal year 2010.
    The U.S. Interagency Council on Homelessness (USICH), of which VA 
is a principal partner, is currently building a plan to address a wide 
range of barriers to ending homelessness. This plan highlights 
interagency collaboration that is built on the understanding that 
mainstream housing, health, and human service programs must be fully 
engaged and coordinated to prevent future homelessness. It will 
incorporate clear and focused priorities and strategies that are 
applicable for Federal, State, local, and private sector use. USICH 
will provide leadership to harness public resources and the enormous 
wellspring of human capital in this country in order to provide every 
citizen the opportunity to reach their full potential. This interagency 
collaboration will show how we can work together in new ways so that we 
can end homelessness, not only among our veterans but in the general 
population, and inspire citizens, nonprofits, philanthropy, and 
businesses to join in the effort.
                               conclusion
    Our Nation's veterans experience higher than average rates of 
depression, substance abuse, and unemployment--conditions that combine 
to form a downward spiral that all too often ends in homelessness, and 
sometimes in suicide. But the President's fiscal year 2011 budget and 
fiscal year 2012 advanced appropriation request positions VA to 
continue transforming into a 21st century organization and to ensure we 
provide timely access to benefits and high quality care to our 
veterans. Nowhere is this more important than in our efforts to end 
homelessness in the next 5 years and break the downward spiral that all 
too often results in homelessness. The time to end homelessness among 
our veterans is now. With your help, we will do it for all veterans who 
seek and accept services from us. We owe every man and woman, who wore 
our Nation's military uniforms, no less.
    Chairman Johnson, Chairman Murray and ranking members--this 
concludes my testimony. I am happy to respond to any questions you or 
the subcommittee may wish to ask.

    Senator Murray. Thank you.
    Secretary Donovan.
STATEMENT OF HON. SHAUN DONOVAN, SECRETARY, DEPARTMENT 
            OF HOUSING AND URBAN DEVELOPMENT
    Secretary Donovan. Thank you, Chairwoman Murray, Chairman 
Johnson, Ranking Members Bond and Hutchison, members of the 
subcommittees.
    I am pleased to join my colleague and good friend from the 
Department of Veterans Affairs to be with you today.
    As the HUD Secretary, as well as the current Chair of the 
Interagency Council on Homelessness, today, on the anniversary 
of President Obama's signing the HEARTH Act, I want to describe 
what HUD is doing to prevent and end homelessness and how we 
are working with VA and other agencies to tackle veterans' 
homelessness.
    With veterans comprising an estimated 12 percent of 
homeless adults, more homeless Vietnam-era veterans today than 
troops who died during the war itself, and too many of the 
brave Americans who deployed to the wars in Iraq and 
Afghanistan already living on our streets, the need for action 
and for collaboration is crystal clear.
    As you know, the President's 2011 budget requests $2.14 
billion for HUD homeless assistance funding, a $200 million 
increase compared to fiscal year 2010. This represents a 10 
percent increase overall, a significant commitment to confront 
a significant need in a tight fiscal environment.
    Indeed, it is in part because of Congress's leadership over 
the years that HUD's homeless programs have become more 
performance driven and outcome based, targeting and leveraging 
Federal resources at the local level to combat homelessness. 
This process culminated with the HEARTH Act.
    Over time, research by publications such as the Journal of 
the American Medical Association has demonstrated that 
permanent supportive housing both ends homelessness for those 
who many thought would always live on our streets and in 
shelters and saves taxpayers' money as well by interrupting 
their costly cycling through shelters, emergency rooms, detox 
centers, prisons, and hospitals.
    Indeed, the impact of connecting resources to proven 
solutions has been clear and dramatic, in the 4 years from 2005 
through 2008, as communities improve their ability to track and 
measure progress in this area, the number of chronically 
homeless individuals dropped by 30 percent.

        HOMELESS PREVENTION AND RAPID RE-HOUSING PROGRAM (HPRP)

    With tools like the Homelessness Prevention and Rapid Re-
housing Program, or HPRP, created in the Senate by this 
subcommittee in the Recovery Act and funded at $1.5 billion, we 
have begun to reorient the Federal approach toward preventing 
homelessness. Indeed, the U.S. Conference of Mayors reported 
that two-thirds of cities surveyed found that HPRP is 
fundamentally changing the way local communities provide 
services and structure their response to homelessness. Our 
challenge now is to connect these new resources and tools to 
our homeless veterans.
    To ensure we are meeting the needs of homeless veterans, 
HUD and the VA have jointly committed to reducing homelessness 
among veterans as a high-priority performance goal. This joint 
initiative helps formalize HUD's support of VA's plan to end 
homelessness among veterans, and I want to thank Secretary 
Shinseki for not only making this goal a priority, but for 
putting this goal within our reach.

                                HUD-VASH

    Specifically, the two agencies will reduce the number of 
homeless veterans to 59,000 by June 2012. For our part, HUD is 
committed to assisting 16,000 homeless veterans each fiscal 
year to move out of homelessness into permanent housing. One of 
the primary vehicles for solving veterans' homelessness is the 
HUD-VASH program, which combines HUD's housing choice voucher 
rental assistance with VA's case management and clinical 
services.
    From 2008 to 2010, the Congress provided $75 million each 
year for HUD-VASH, and I want to thank this subcommittee for 
their leadership on that. Through this partnership, HUD and VA 
will provide permanent housing and services for 30,000 homeless 
veterans and their families. Of the more than 20,000 vouchers 
in the 2008 and 2009 HUD-VASH allocations, more than half are 
under lease, and more than 94 percent have been issued to our 
veterans.
    Indeed, I am proud to say that in the first quarter of the 
calendar year, we increased the rate of issuance by 44 percent. 
In all, more than 19,000 HUD-VASH vouchers are in veterans' 
hands as we speak, helping them to find the affordable housing 
they need, and we are proud of this progress, which is making a 
real difference in the lives of homeless veterans right here in 
Washington, DC, where HUD, VA, and other Federal partners have 
been working with local agencies to identify, case manage, and 
place veterans into housing over the next 13 months.
    Since December alone, 85 percent of these vouchers are 
housing veterans. In addition, as a result of your efforts, HUD 
is working with the VA and the Department of Labor to unveil a 
demonstration on preventing homelessness among veterans, which 
we expect to unveil in the coming weeks. All of these efforts 
will be key components within the first-ever comprehensive 
Federal strategy to prevent and end homelessness.
    As Chair, I believe the mission of the Interagency Council 
is simple--to bring as many partners as possible to the table 
to prevent and end homelessness. Nowhere is that more needed 
than to help homeless veterans, which is why one workgroup to 
develop the plan specifically focused on the prevention and 
elimination of homelessness among those who served in our armed 
forces and their families, who pay a very steep price for the 
sacrifices their loved ones make for the country.
    Over the past several months, to help inform our thinking, 
we have spoken personally with nearly 1,000 stakeholders and 
received over 2,000 comments on our Web site. Just yesterday, 
as Chair, I convened the council with Secretary Shinseki for 
our final discussion of the plan, and we expect to deliver the 
plan to the President and Congress in the coming days.
    With the support of your subcommittees, I am confident 
that, together, we will be able to document real progress in 
the fight to prevent and end homelessness. And so, I hope the 
subcommittees can see that we are serious about our commitment 
to solving homelessness among our veterans and making progress 
that would not have been possible without the efforts of the 
subcommittees.

                           PREPARED STATEMENT

    While we still have a ways to go, President Obama, 
Secretary Shinseki, and I believe providing every American--
from the most capable to the most vulnerable--the opportunity 
to reach his or her full potential begins with a strong 
commitment to preventing and ending homelessness. That is what 
our efforts are about. And with that, I look forward to your 
questions.
    Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Shaun Donovan
    Chairwoman Murray, Chairman Johnson, Ranking Members Bond and 
Hutchison, members of the subcommittees, I am pleased to be here today.
    As our Nation's 15th HUD Secretary and the current Chair of the 
Interagency Council on Homelessness, today I want to describe what HUD 
is doing to prevent and end homelessness, with an emphasis on our 
veterans--many of whom, despite having defended this great Nation and 
sacrificed so much for their country, now find themselves on our 
streets and in our shelters.
    One year ago today, President Obama signed the Homeless Emergency 
Assistance and Rapid Transition to Housing Act (HEARTH), which 
restructures the McKinney-Vento Homeless Assistance Programs, 
consolidating the agency's homeless funding streams, increases emphasis 
on homeless prevention, adds rapid re-housing as a solution to 
homelessness and expanded HUD's definition of homelessness.
    HEARTH codifies in statute the Continuum of Care (CoC) program and 
consolidates HUD's existing competitive homeless programs into a 
single, streamlined program in the CoC. The law also revamps the 
Emergency Shelter Grants program--renaming it the Emergency Solutions 
Grant (ESG) program. The new ESG will provide for flexible prevention 
and rapid re-housing responses to homelessness--similar to the Recovery 
Act Homelessness Prevention and Rapid Re-housing (HPRP) program--so 
that individuals and families--including veterans and their families--
who are either at risk or who literally are homeless may receive 
assistance. Finally, the legislation provides for the Rural Housing 
Stability Assistance Program to provide targeted assistance to rural 
areas.
    Since their inception, HUD's current homeless assistance programs 
have called on communities to identify and address the needs of all 
homeless persons, including veterans. Today, veterans comprise an 
estimated 12 percent of homeless adults, more homeless Vietnam-era 
veterans today than troops who died during the war itself. We are 
already seeing some of the 1.6 million Americans who deployed to the 
wars in Iraq and Afghanistan living on our streets. And so, the need 
for action--and for collaboration--is crystal clear.
    As such, I'll begin by describing how we are using the new 
resources Congress has provided and programs it has authorized that are 
helping communities to prevent and solve homelessness. I will follow by 
describing what we are doing to better understand the nature and scope 
of homelessness using data. And I will conclude my testimony by 
explaining how some of the interagency partnerships we are taking on at 
HUD will help us to tackle veterans homelessness as the Interagency 
Council on Homelessness develops a strategic plan that makes ending 
homelessness a Federal priority.
   changing the way we combat homelessness--hprp and the 2011 hearth 
                             budget request
    In the Recovery Act, Congress appropriated $1.5 billion to the 
Homelessness Prevention Fund, renamed the Homelessness Prevention and 
Rapid Re-housing program. The purpose of the program is to provide 
financial and other assistance to prevent individuals and families from 
becoming homeless and help those who are experiencing homelessness to 
be quickly re-housed and stabilized. The funds were provided to States, 
cities, and counties to administer the programs and assist eligible 
individuals or families.
    To date, well over 150,000 households have avoided homelessness or 
been rapidly re-housed from emergency shelters through HPRP. And the 
U.S. Conference of Mayors reported that HPRP is fundamentally changing 
the way local communities provide services and structure their response 
to homelessness.
    We are learning through monitoring and technical assistance site 
visits that many veterans are receiving financial assistance through 
this program, and will know the cumulative number of veterans served 
later this year when the grantees submit their Annual Performance 
Report. In addition, communities were strongly encouraged to use a 
portion of the HPRP funds to pay for security deposits for a 
participant in the HUD-VASH program. And we continue to do so. Since 
HUD-VASH participants would already be receiving housing and services, 
providing security deposits through HPRP was determined to be one way 
to help homeless veterans receive the money they need to secure a 
permanent place to live.
    Many of the lessons we are learning from HPRP will be applied in 
the implementation of the Homeless Emergency Assistance and Rapid 
Transition to Housing (HEARTH) Act, which will occur in 2011.
    Indeed, when signed by President Obama in the spring of 2009, 
HEARTH restructured HUD's homeless assistance programs to incorporate 
nearly two decades of research and on-the-ground experience in 
confronting homelessness. To support implementation of this important 
legislation, the budget requests $2.14 billion for homeless assistance 
funding--a $200 million increase compared to fiscal year 2010. This 
represents a 10 percent increase overall--a significant increase in a 
tight fiscal environment to confront a significant need.
    Because many homeless veterans access services and housing through 
the HUD's homeless assistance programs as well as through VA programs, 
this additional investment in homeless assistance programs is called 
for even in a difficult fiscal environment. Culminating in the HEARTH 
Act, HUD's homeless programs have evolved into a more performance-
driven, outcome-based system for targeting and leveraging Federal 
resources at the local level to combat homelessness. Congress played an 
indispensable role in this process. In the late 1990's, when less than 
20 percent of HUD homeless assistance grants were supporting permanent 
housing solutions for the most disabled homeless individuals and 
families, this subcommittee joined your colleagues in the House in 
requiring that at least 30 percent of these grants be spent annually on 
the evidence-based practice of permanent supportive housing, and set 
forth the ambitious goal of creating 150,000 units of permanent 
supportive housing for the chronically homeless.
    Over time, the research foundation for this targeted investment has 
only solidified--key studies, including several published in the 
Journal of the American Medical Association, have demonstrated that 
permanent supportive housing both ends homelessness for individuals 
whom many thought would always live on our streets and in shelters, and 
saves taxpayers money by interrupting their costly cycling through 
shelters, emergency rooms, detox centers, prisons, and even hospitals.
    As a consequence of the permanent housing set aside, maintained 
each year by this subcommittee in the past but now required by HEARTH, 
HUD's homeless assistance grants produced an average of 8,878 permanent 
supportive housing beds annually since 2001, and a cumulative total of 
71,000 beds, with an increasing percentage targeted to the chronically 
homeless (66 percent in fiscal year 2008 compared to 53 percent in 
fiscal year 2005, the first year HUD tracked such data). The impact was 
clear and dramatic. In the 4 years from 2005 through 2008, as 
communities improved their ability to track and measure progress in 
this area, the number of chronically homeless individuals dropped by 30 
percent, a significant social welfare policy achievement.
    One of the key provisions of the HEARTH Act was its codification in 
statute of the 30 percent permanent housing set aside pioneered by this 
subcommittee. Coupled with the level of funding this budget requests, 
and the alignment of homeless assistance grants with other HUD rental 
assistance subsidies (1 year terms), this provision is projected to 
yield over 9,500 new units of permanent supportive housing for disabled 
individuals and families. This will enable continued progress toward 
ending chronic homelessness.
    The HEARTH Act also codifies in statute the unique competitive 
process, known as the Continuum of Care (``CoC''), in which HUD 
homeless assistance funding and priorities are incorporated within a 
robust local planning and implementation process. The CoC system 
provides a coordinated housing and service delivery system that enables 
communities to plan for and provide a comprehensive response to 
homeless individuals and families. Communities have worked to establish 
more cost-effective continuums that identify and fill the gaps in 
housing and services that are needed to move homeless families and 
individuals into permanent housing. The CoC is an inclusive process 
that is coordinated with non-profit organizations, State and local 
government agencies, service providers, private foundations, faith-
based organizations, law enforcement, local businesses, and homeless or 
formerly homeless persons. This planning model is based on the 
understanding that homelessness is not merely a lack of shelter, but 
involves a variety of unmet needs--physical, economic, and social.
    Fiscal year 2011 marks the first year for implementation of this 
and other key features of the HEARTH legislation including: increased 
investment in the evidence-based practice of homelessness prevention; 
support for the project operation and local planning activities needed 
to continue the movement of the HUD-supported homeless assistance 
system to a more performance-based and outcome-focused orientation; and 
provision of assistance that better recognizes the needs of rural 
communities. Also in our fiscal year 2011 budget is a request for $85 
million in Housing Choice Voucher assistance to help end homelessness. 
This demonstration will assess how mainstream housing and service 
resources can help homeless and near homeless families as well as 
chronically homeless individuals and families becoming stably housed. 
HUD's mainstream housing vouchers will be connected to needed services 
funded by the Department of Health and Human Services, including 
Medicaid, TANF and SAMHSA funds. We will also be working closely with 
the Department of Education to help ensure we identify homeless 
children and their families who could benefit from this initiative.
    On April 21, 2010, HUD published its Notice of Fiscal Year 2010 
Opportunity to Register for the Continuum of Care Homeless Assistance 
Programs. The Notice provided instructions on how to apply for the 
approximately $1.68 billion available to assist homeless individuals 
and families. As in previous Notices, and its Notices of Funding 
Availability, HUD emphasized that the needs of each subpopulation be 
addressed, including homeless veterans. This Notice also encouraged 
communities to use a portion of available bonus funds to create a new 
permanent housing project that will serve disabled veterans. The 
creation of these extra beds for disabled veterans would therefore help 
to meet a HUD priority. This is especially significant, because at this 
point in the evolution of CoC funding nearly 53 percent of the 
approximately 454 existing CoC communities do not have access to new 
project funding except through this bonus opportunity created within 
the annual homeless competition.
           understanding the nature and scope of homelessness
    Of course, to use these new interventions most effectively, we need 
to recognize that when it comes to homelessness, one size doesn't fit 
all. HUD's 2008 Annual Homeless Assessment Report to Congress found 
that on a single night in January 2008, 664,000 people were homeless, 
including veterans, and throughout the course of a year, approximately 
1.6 million found themselves without a place to call home and sought 
shelter. These figures have held steady from 2007 to 2008.
    This report also found a troubling increase in the number of 
homeless families--9 percent. And with a 56 percent increase in rural 
and suburban family homelessness--we see that homelessness is not 
simply an urban problem, but one every kind of community struggles 
with.
    While this data tells us a great deal about the nature and scope of 
homelessness during 2008--and the 2009 data will be released to the 
Congress next month--it does beg many other questions about what's 
happening right now:
    How is the housing crisis playing out in our shelters and on our 
streets?
    Who is homeless today and are more families on the street today 
than a few months ago?
    In which areas and regions is homelessness on the rise, holding 
steady or declining?
    It is these questions--and limitations to using annual data--that 
we are trying to answer through our new Quarterly Homelessness Pulse 
Report that tracks real-time changes in homelessness in a small number 
of geographically diverse areas of the country.
    Today, I am proud to release the results of our most recent 
quarterly Pulse report, which compares data collected on homelessness 
through the end of December of this past year to earlier quarters for 
eight communities. The report showed an overall slight decline in the 
number of persons sheltered, both for families and for individuals. 
While this is still a small sample--and some of these communities did 
report increases--this data indicates that homelessness nationally may, 
in fact, no longer be increasing as communities begin to emerge from 
this housing crisis.
    We continue to make enhancements to this report to get a better 
gauge of the impact our economy is having on homelessness. We are 
tracking foreclosure data, unemployment, new entrants into 
homelessness, and identifying prior living situations of those who 
become homeless. This data helps inform us and communities and how best 
to confront the current problem.
    With respect to veterans, for the first time, HUD is working to 
publish in late summer a special supplemental Annual Homeless 
Assessment Report (AHAR) to Congress dedicated exclusively to homeless 
veterans. The report will contain a rich demographic portrait of 
veterans, their service usage patterns and reliable numbers on 
sheltered vets. This report will be extremely beneficial in informing 
local and national policy and planning efforts.
         making veterans' homelessness an interagency priority
    As important as these new resources are--and our ability to 
understand the nature and scope of homelessness--to ensure we are 
meeting the needs of homeless veterans, the Department of Housing and 
Urban Development and the Department of Veterans Affairs have jointly 
committed to reducing homelessness among veterans as a High Priority 
Performance Goal. This joint initiative helps formalize HUD's support 
of VA's plan to end homelessness among veterans, and I want to thank 
Secretary Shinseki for not only making this goal a priority--but also 
for the leadership he has provided to put it within reach.
High Priority Performance Goal
    The number of homeless veterans in the United States, as reported 
in the 2008 Annual Homeless Assessment Report (AHAR), is 135,583 (or 12 
percent of homeless adults that used emergency or transitional housing 
over the course of a year). With the economic crisis and the return of 
veterans from Iraq and Afghanistan, this number may continue to 
increase. In order to better serve this population, HUD plans to 
increase housing resources available to homeless veterans, focus 
efforts to ensure that coordination between local VA Medical Centers 
and Continuums of Care are strengthened, and utilize Recovery Act 
resources provided through the Homelessness Prevention and Rapid Re-
housing Program (HPRP) to assist veterans who are at-risk of becoming 
homeless. As such:
  --Together, the two agencies will reduce the number of homeless 
        veterans to 59,000 by June 2012. Without this intervention, we 
        estimate that there would be 194,000 homeless veterans by June 
        2012.
  --Toward this joint goal, HUD is committed to assisting 16,000 
        homeless veterans each fiscal year to move out of homelessness 
        into permanent housing (6,000 through Continuum of Care 
        programs, and 10,000 in partnership with VA through the HUD-
        VASH program).
HUD-VASH
    One of the primary vehicles for preventing veterans' homelessness 
is the HUD-Veterans Affairs Supportive Housing partnership, or HUD-
VASH.
    From 2008 to 2010, the Congress provided $75 million each year for 
HUD-VASH. The program combines HUD Housing Choice Voucher rental 
assistance (administered through HUD's Office of Public and Indian 
Housing) for homeless veterans with case management and clinical 
services provided by the Department of Veterans Affairs (VA) at its 
medical centers in the community. Through this partnership, HUD and VA 
will provide permanent housing and services for approximately 30,000 
homeless veterans and their family members, including veterans who have 
become homeless after serving in Iraq and Afghanistan.
    HUD and VA are working together to ensure that the referral and 
voucher issuance process are working efficiently in places where the 
2008 and 2009 vouchers have already been allocated to ensure that 
homeless veterans can be housed as quickly as possible.
    As HUD-VASH shows, new partnerships often require a new way of 
doing business that can be challenging at first. But I'm pleased to 
report we are making good progress between our agencies and with 
housing authorities and VA Medical Centers--and we will continue to 
push for more effective partnerships at the local level.
    Of the more than 20,000 vouchers in the 2008 and 2009 HUD-VASH 
allocations, 58 percent are under lease--and more than 94 percent have 
been issued to our veterans. That means more than 19,000 HUD-VASH 
vouchers are in veterans' hands as we speak--helping them to find and 
afford the housing they need. This represents significant progress over 
last year.
    To address leasing and other issues, HUD and the VA are meeting on 
a regular basis and have held a number of Web broadcasts. In addition, 
for the past 2 years conferences have been held for public housing 
agencies and VA personnel to share experiences and identify for best 
practices. This year the VA is sponsoring four regional HUD-VASH 
conferences throughout the country to address problems and search for 
solutions in housing homeless veterans. Information from these 
conferences will be shared with all HUD-VASH sites.
    Of course, HUD-VASH is only as successful as the local partnerships 
between VA Medical Center staff and public housing agency staff, as 
well as with other local service and homeless providers. Sites that 
have had particular success in placing veterans quickly have emphasized 
housing search assistance and landlord outreach. Successful sites also 
have identified and accessed additional resources, such as HUD's 
Homelessness Prevention and Rapid Re-housing program, which assists 
veterans in paying for security and utility deposits, first month's 
rent, and other items necessary to establish a new household.
    For fiscal year 2011, HUD did not request funding for HUD-VASH. 
While the need for homeless veterans' assistance is great, with the 
significant level of resources that we have been provided by Congress 
in recent years, we want to ensure that these resources are used as 
effectively and efficiently as possible. And we have been working with 
the VA to do so this year. We will continue to assess progress being 
made, including in leasing up more quickly, as we consider additional 
resources that might be needed for HUD-VASH.
    In the coming year, HUD and the VA will continue to work closely 
with the local staff responsible for administering this program to 
ensure that best practices are shared among sites, and that barriers or 
problems that arise are addressed quickly. HUD views Housing First as a 
critical element to solving veteran homelessness. Accordingly, HUD and 
VA are working together to assess how HUD-VASH can be enhanced through 
the Housing First model. Furthermore, now that the referral, voucher 
issuance, and leasing processes are well underway, the next phase will 
be to ensure veterans can maintain housing. Ongoing communication and 
collaboration between case managers and PHA staff will be critical to 
provide veterans the support they need on a case-by-case basis.
A Federal Commitment to End Homelessness--A Case Study
    Allow me to give the subcommittees one example of how this 
partnership is making a real difference in the lives of homeless 
veterans right here in Washington, DC. And we believe this special 
project could become a model for the Nation.
    Under the leadership of the U.S. Interagency Council on 
Homelessness and the White House Office of Urban Affairs, VA, HUD, HHS, 
DOJ and DOL are in the process of developing an interagency pilot 
program to bring the full arsenal of their resources to bear on the 
problem of homelessness among veterans in the District of Columbia.
    The interagency partnership will build upon a Federal local 
partnership that recently developed between the VA and the D.C. 
Department of Human Services to expedite the HUD-VASH process. On 
December 17, 2009, the D.C. VAMC formally entered into an 
intergovernmental agreement with D.C. Department of Human Services 
(DHS) to identify, case manage and place 105 eligible veterans into 
housing (out of the 175 vouchers allocated to D.C. VAMC for 2009) over 
the next 13 months.
    The partnership is already producing results. By January 15, 2010, 
D.C. DHS issued vouchers and leased up for nearly 90 eligible veterans. 
The partnership has also developed a number of innovative strategies to 
ensure the program's success, such as agreements with local furniture 
stores that allow veterans to purchase furniture for their apartments 
through ``furniture vouchers.''
    Other strategies applied by the D.C. partnership serve as an 
example of efforts by VASH sites to effectively streamline 
administrative processes and reduce the amount of time required between 
the referral and lease-up of a veteran family. Previously, a veteran 
may have needed to return 4 to 5 times to the DCHA office to receive 
and complete paperwork, receive instructions about the housing search 
and lease-up process. Veterans and their case managers now only need to 
come to DCHA once before signing a lease.
    One of the methods applied to expedite the eligibility and leasing 
process was the subcontracting of a housing search specialist by DHS to 
identify and recruit landlords, facilitate the DCHA's inspection 
processes of potential units, and develop a pool of pre-inspected rent-
reasonable units. Because the housing search process is ongoing and 
runs parallel to the process of determining the eligibility of referred 
veterans, veterans have a number of units from which to choose upon 
issuance of their voucher. This allows the veteran to lease a unit on 
the same day their voucher is issued. Veterans who do not want to 
select from the identified pool of units are still free to find a unit 
through their own housing search and may receive assistance with that 
search.
    In addition, the D.C. partner agencies apply focused communication 
methods through the use of an online information sharing tool that 
enables all staff involved to track the progress of the lease-up 
process. Twice-a-week conference calls allow the agencies to spot and 
solve any problems that may arise. As a result of this and other 
effective strategies, between 2008 and 2009, the D.C. VASH site reduced 
its average lease-up time by 80 percent from 6 months to 1 month.
    As successful as the D.C. effort has been to date, this is not to 
suggest that all communities with HUD-VASH vouchers should replicate 
the D.C. approach, Rather, HUD and VA are using the lessons we have 
learned community-by-community to help local housing and service 
delivery systems best meet the unique needs of the veterans in their 
area. These local efforts will help VA and HUD continue to improve the 
administration of this program.
HUD Veterans Homelessness Prevention Demonstration Project
    In addition, HUD is working with the VA and DOL to unveil a 
demonstration on how we can best prevent homelessness among veterans.
    In fiscal year 2009, HUD received an appropriation of $10 million 
to develop and conduct a demonstration program on preventing 
homelessness for veterans. In addition to the $10 million for the 
program itself, HUD received $750,000 to conduct an evaluation of the 
demonstration, the results of which we intend to share with Congress 
and the public. The demonstration, which will be announced via a 
Notice, will include a small number of sites, including rural and urban 
areas, and will focus primarily on veterans returning from Iraq and 
Afghanistan. HUD is working closely with the VA and DOL on developing 
the demonstration program. VA received $5 million in fiscal year 2009 
for services that will be coordinated with this HUD funding. DOL will 
be providing assistance to the demonstration through its existing 
veterans' employment and training programs.
    HUDVET is HUD's Veterans Resource Center that provides veterans and 
family members with information on HUD's community-based programs and 
services. HUDVET is involved in designing the Veteran Homelessness 
Prevention Demonstration project for which HUD is preparing to announce 
the selected sites. Once these sites are announced, HUDVET will be 
involved in assisting local efforts to prevent homelessness among OIF/
OEF and other veterans, including veterans that served in the National 
Guard and Reserve. We expect to be unveiling this demonstration in the 
near future.
A Federal Strategy to Prevent and End Homelessness
    Lastly, pursuant to the Hearth Act, the U.S. Interagency Council on 
Homelessness (USICH) is charged with developing a Federal plan to 
prevent and end homelessness. As the current USICH Chair and the 
Secretary of the agency providing most of the Federal housing resources 
to confront homelessness I want to highlight how important this Federal 
plan is.
    The Council has 19 member agencies--and to solve homelessness we 
need to harness expertise and resources across the Federal Government. 
Barbara Poppe, the Council's new Executive Director, and her staff have 
done an outstanding job in working with the various agencies in 
developing this plan.
    But let me say that we have solicited and received input from 
literally thousands of stakeholders across the Nation. I also want to 
highlight how involved the Federal agencies have been, including agency 
heads. I have had very substantive discussions with Secretary Shinseki 
and other senior administration officials during this process.
    As Chair, I believe the mission of the Interagency Council is 
simple: To bring as many partners as possible to the table--at the 
local, State and Federal levels to prevent and end homelessness. 
Nowhere is that more needed than to help homeless veterans. In fact, 
one workgroup to develop the plan--the Veterans Workgroup--focuses on 
the prevention and elimination of homelessness among adults who have 
served in the armed forces and their families.
    We expect to deliver the plan to the President and to the Congress 
soon. HUD looks forward to continuing to work closely with the other 
Federal agencies, including the VA, with other stakeholders, to 
implement this plan.
    With this plan and the support of your subcommittees, I am 
confident that, together, we will be able to document real progress in 
our fight to prevent and end homelessness.
                               conclusion
    And so, Chairwoman Murray, Chairman Johnson, Ranking Members Bond 
and Hutchison, and members of the subcommittees, I hope you can see 
that we are making real progress in solving homelessness--in particular 
among our veterans. This progress would not have been possible without 
the resources provided by you--and your personal commitments to this 
issue.
    While we still have a ways to go, President Obama, Secretary 
Shinseki and I believe providing every American--from the most capable 
to the most vulnerable--the opportunity to reach his or her full 
potential begins with a strong commitment to preventing and ending 
homelessness. That is what all our efforts are about. And with that, I 
look forward to your questions. Thank you.

                        BARRIERS TO HOMELESSNESS

    Senator Murray. Thank you very much to both of you for your 
testimony.
    Again, I just want to note that there is a joint session of 
Congress with the President of Mexico. So a number of our 
members have not been able to be here, or have had to leave 
early. We will leave the record open for them to be able to 
submit their questions to both of you, and we will expect 
responses to them.
    And with that, let me start with the first comment and 
question. For me, it isn't enough just to provide funding for 
HUD-VASH and simply hope that this program works. I expect to 
see this program getting veterans into housing and that the 
numbers of veterans on the streets continue to decline until we 
finally really do end homelessness for our veterans.
    And achieving results demands that we ask some tough 
questions about what is working and what doesn't, and make sure 
we are taking steps to implement solutions and hold people 
accountable for these results. And then I believe that success 
will be measured in terms of the long-term housing stability 
and quality of life for those veterans in the long term.
    I think you have heard from everyone up here the need for 
these vouchers is really clear, but the lag in getting them to 
the chronically homeless veterans is very troubling to us. We 
are now well into fiscal year 2010 and fewer than a quarter of 
the vouchers that were awarded in 2009 have been leased.
    So I wanted to ask both of you individually do you have a 
goal for how long it should take for veterans to get into 
housing once they get a VA referral, and also, are the PHAs and 
VA medical centers being held accountable if they fail to meet 
those goals?
    Secretary Shinseki, I will start with you.
    Secretary Shinseki. Madam Chairman, I think we are learning 
as we go. It took us a while to get the program up and running 
fully. There are a number of moving pieces between both 
departments, including public housing authority. In some cases, 
there is not a clear single point where we have run into some 
of the time delays.
    To answer your question, yes, we can be more efficient, and 
we have put more energy behind this. In some cases, we have had 
to work around some of those delays. We had other options, and 
so we have made those fixes on a case-by-case basis. But I 
think you are right. We need to look at this more systemically 
and get this moving properly.
    I will defer to Secretary Donovan on the aspects of the 
process he is most familiar with. We average about 109 days 
right now, far too long. Our piece of that portion is about 15 
percent of that time.
    Senator Murray. Is that from when they get a referral until 
they get in?
    Secretary Shinseki. That is correct. It is admission into 
the program and completion of the public housing authority's 
requirements, which is driven by PHA. There is a housing search 
period that ends with an inspection, and then there is a 
housing selection and move-in, which is really the longest 
period, about 42 days. Some of that we have taken steps in the 
2011 budget to put in place resources that will accelerate the 
housing selection and move in.
    We find that there are veterans that need help with the 
deposit and need help with turning on electricity. So we have 
put in place a solution for that help. And so, as I say, we 
learn as we go. We are better at it today. We will get better 
as we go through this year.
    Of the 20,000 vouchers, 19,000 will be fully housed by the 
end of the year, and we are still working on the last 1,000.
    Senator Murray. Okay. Secretary Donovan.
    Secretary Donovan. Just to pick up on General Shinseki's 
comments, I think there are really two aspects of this that I 
would isolate. One is the process of getting to the point of 
issuing a voucher, where there is a lot of the collaboration 
that happens between our agencies. And we have worked hard on 
that, and I think we have made enormous progress.
    As I said in my statement, our issuance rate in the first 
quarter of this year was up 44 percent, and we now are at the 
point, the 19,000 vouchers that are out there represent 94 
percent of the vouchers that are already available. So I think 
we have substantially improved our working together to get 
vouchers issued.
    We continue to see barriers for those veterans who have the 
vouchers in their hand to actually be able to lease-up units. 
And what we are seeing is a range of barriers around that, some 
of them not surprising. Credit checks or screening that, at 
times, will screen out veterans because of a history perhaps of 
substance abuse or a criminal record, issues like that.
    We also, though, are seeing barriers like security 
deposits, first month's rent, which can hold back a veteran 
from being able to get there. One of the critical tools on that 
has been HPRP in the Recovery Act. I think there are certain 
places around the country where those partnerships have begun 
to work very well, and they have helped to overcome the lease-
up barriers.
    There are others where we are still working on--because 
that is a relatively new resource--putting that in place. As 
Secretary Shinseki said, we are also proposing resources going 
forward similar to HPRP, which will allow us to use funding for 
those security deposits, first month's rent to help overcome 
some of those barriers.
    And one more--I am sorry. One more idea I would just 
suggest as well. We have seen a number of cities, about 141 
vouchers so far, used in a project-based context, including in 
Seattle. And what we find is that where they are used in a 
project base, we can overcome that lease-up because they are 
specifically established for veterans.
    So one of the ideas that we are pursuing in the 2010 
allocation is a set-aside of 400 vouchers for project-based 
units that we think can make sure that there is faster lease-
up. That is not going to be appropriate in all cases, a project 
base, but we think in certain particularly tight markets that 
it can be very valuable.

                             CASE MANAGERS

    Senator Murray. Okay. My time is up. But a panelist on the 
second panel is going to tell us that one of the barriers is 
that they don't have a steady and prompt pipeline of referrals 
from the VA and that slow hiring of case managers is a problem. 
Is either of you aware of that?
    Secretary Shinseki. I am not aware of the specifics, but I 
would just describe for the chair that the process is the 
vouchers are allocated by location by HUD. We are not allowed 
to hire case managers until those have been identified and 
announced, and then we very quickly stand up as many case 
managers as we can.
    Once veterans have the vouchers they have an opportunity to 
then decide where they want to reside, we find it is helpful to 
have case managers help them go through that process. Just 
leaving them on their own sometimes incurs more waiting and 
they are just not sure what the next step is, so case 
management helps there.
    These things we are bringing together, but it begins with 
how many vouchers and where are they going to be allocated and 
then there is collaboration. But as soon as it is announced, we 
are not allowed to hire until announcements are made, we very 
quickly try to develop those case managers.
    Senator Murray. Okay.
    Secretary Donovan. And what I would say, there continue to 
be isolated challenges around this. What I would say, this is a 
barrier to getting, to issuing the vouchers, connecting a 
particular veteran through the case management to a housing 
authority and getting a voucher into their hand.
    What I would say is that is an area where we have made 
substantial progress, and the fact that 94 percent of the 
vouchers are now issued I think demonstrates that while we 
haven't solved it everywhere, working together--and I would 
give a lot of credit to our teams--I think we have been able to 
make substantial progress on that challenge.
    Senator Murray. Thank you.

                    RESOURCES FOR HOMELESS VETERANS

    Chairman Johnson.
    Senator Johnson. In your prepared statement, you described 
the HUD-VASH program as one of the primary vehicles for 
preventing homelessness among vets. And yet your 2011 budget 
request includes no money to fund it. In contrast, the VA 
budget includes $75 million for the program. As you noted, this 
program is a partnership. How can it function if only one 
partner is willing to fund it?
    Secretary Donovan. A couple of things I would say about 
that. First of all, I want to be very clear that while HUD-VASH 
is a critical part of our efforts to serve veterans, it is only 
a part. And roughly 1 in 10 of every other unit that we produce 
through our continuum of care goes to veterans. And so, the 
fact that we are proposing a substantial increase in funding 
overall for our continuum of care would mean significantly more 
resources for homeless veterans in 2011.
    Second thing I would say is that the 30,000 vouchers that 
have already been authorized and appropriated will continue to 
be available in future years. There is turnover in those 
vouchers, and so, having case management and support from VA on 
a continuing basis for those 30,000 is absolutely critical.
    And then, finally, at the time that we put our 2011 budget 
request, and we have talked about this with the Appropriations 
Committee before, we were quite concerned, frankly, with the 
barriers that we were seeing to lease-up. And we felt that with 
the 30,000 vouchers already available, we had concerns about 
the ability of the system to absorb an additional 10,000 
vouchers in 2011.
    What I would say is that since that time, since the time 
that we put our budget together, we have made very, very 
substantial progress. We still have some of the barriers that I 
talked about earlier in terms of actual lease-up. But I think I 
would say to you today that both Secretary Shinseki and I are 
far more confident today than we were when we put our budget 
together that we have the ability to actually get these 
vouchers issued and leased up.
    And so, I think we should continue the conversation with 
the subcommittee as we move toward the budget about 
improvements that we are making and the ability to utilize an 
additional allocation of vouchers going forward.

                       NATIVE AMERICAN VOLUNTEERS

    Senator Johnson. Secretary Donovan, as I understand it, 
Native American tribes are not eligible under the HUD-VASH 
program to receive vouchers. How can this permanent housing 
approach be adapted to allow tribes to participate?
    Secretary Donovan. First of all, just to be clear, Native 
Americans themselves are eligible, and I think it is important 
that housing authorities around the country ensure that we are 
making connections to Native American veterans who would be 
eligible for the program.
    But you do correctly cite the fact that the statutes that 
created the voucher law more broadly don't make tribes 
themselves eligible to administer and oversee the vouchers. 
That is something, obviously, if Congress were to determine 
that that should be changed, it is obviously something we could 
discuss with the subcommittees.
    But currently, the opportunity for tribes to serve homeless 
veterans directly is through their Native American Housing 
Block Grant program. They can create a similar kind of rental 
assistance to the vouchers. It is not identical, but they can 
use the ongoing resources that they receive through the Native 
American Housing Block Grant to serve homeless veterans in a 
similar way to HUD-VASH, and we would be happy to follow up 
with you with more details about those opportunities.

                            5-YEAR PLAN (VA)

    Senator Johnson. Yes. Do that.
    All right, Secretary Shinseki, if HUD does not provide 
funding for HUD-VASH housing vouchers in fiscal year 2011, what 
impact will that have on your 5-year plan to address 
homelessness among vets?
    Secretary Shinseki. Mr. Chairman, you are right in looking 
at HUD-VASH as a critical part of our plan because it is. It is 
incorporated into our 5-year effort.
    If there is a year's break, we will adjust. I don't have 
definitive answers today, but we will have to look at how we 
adjust. And I would remind members of the subcommittee that 
even if HUD-VASH is not available for that period of time, we 
have other programs. I will be looking in transitional housing, 
grant per diem, and transitioning some of that toward an 
affordable permanent status.
    I will take my lead and advice here from Secretary Donovan, 
who has done considerable work in this area and who understands 
how to sort of bridge this gap. But there would be some 
adjustment to the plan. For the moment, I would say we keep the 
5-year target out there and force ourselves to do hard work.

                    FISCAL YEAR 2011 HUD-VASH BUDGET

    Senator Johnson. Secretary Donovan, how can HUD meet its 
fiscal year 2011 commitment to help 16,000 homeless vets secure 
permanent housing when the assumption is based on the HUD-VASH 
program helping 10,000 of those vets?
    Secretary Donovan. We based those projections on the 
existing resources and the proposed resources in 2011. And 
given that we have, thanks to this subcommittee, an additional 
10,000 VASH vouchers that we will be allocating in the coming 
months and leasing up, as well as thousands of new units of 
supportive housing that are coming online around the country 
through our other programs, we believe we can meet that 
shorter-term goal, the high-performance goal, which is through 
2012.
    Let me be clear, go back to your prior question to 
Secretary Shinseki, the longer-term goal is dependent on and 
would expect future vouchers. The decision about the 2011 
budget was a short-term decision. Did we have the capacity to 
lease up and utilize those additional vouchers in the 2011 
budget timeframe? And we did have concerns at the time that the 
budget was put together.
    As I said earlier, we have made substantial improvements 
since then and I think are far more confident today of our 
ability to lease those up than we were at the time the budget 
was put together.
    Senator Johnson. My time has expired.
    Senator Murray. Thank you.
    Senator Bond.
    Senator Bond. Thank you, Madam Chair.
    Secretary Donovan, my question has already been entered by 
Chairman Johnson, and I still have some questions about it. I 
see the very generous budget request for VA, $115 million for 
healthcare for homeless veterans, and $151 million for HUD-VASH 
voucher support. I am absolutely puzzled why there was no 
request, you put a whole lot of money in for homeless, and you 
stated that only 1 in 10 homeless are vets. But taking care of 
the homeless veterans, even if they are only 1 in 10, has been 
made a very high priority by Congress through these committees.
    And I suggested earlier that if they are zero funded, there 
is a problem. And I know that Mr. Norman, King County Housing 
Authority, will state that with regard to HUD-VASH in 2011, 
``to ensure that existing progress be sustained and built 
upon,'' some level of funding needs to be incorporated. And I 
agree. I think we plan to do that.
    If you said that you now find that there are more housing 
assets available, what other--I mean, please explain why it was 
left out completely. Then what hurdles are left to utilize if 
we put in $75 million, I guess that would be 7,500 vouchers, in 
other words, about a less than one-tenth of where we need to 
go.
    But should we not be--let me ask you those questions first. 
Why no money? And what are the hurdles?
    Secretary Donovan. So, again, the $75 million is about 
10,000 vouchers.
    Senator Bond. Yes, okay.
    Secretary Donovan. We, at the time that the budget was put 
together, felt that given the large number of veterans that all 
of our programs serve--and I want to be clear about that. The 1 
in 10, given that veterans only make up about 1 percent of our 
population, the fact that they make up more than 10 percent of 
our homeless is actually a very disturbing figure. And we do 
make through a broad range of programs, particularly our 
continuum of care, resources available to get homeless veterans 
off the street, thousands and thousands of them every year 
through our other programs.
    So I want to be very clear that the 2011 budget did, both 
through our budget, as well as the budget for the VA, 
substantially increase resources available to house homeless 
veterans. And we felt, at the time the budget was put together, 
that given the challenges we were having in issuing the 
vouchers, leasing them up, we were concerned that in 2011, not 
a long-term stoppage, but for that one year, that we were 
concerned about the capacity to actually utilize those 
vouchers. And we felt that it was a better decision to steer 
those resources, including the large increase in the continuum 
of care, to be able to best serve them.
    I think since that time, since the budget was put together, 
we have made substantial progress, a 44 percent increase in 
issuance in the first quarter of this year. I am quite proud of 
our teams and the effort they put together to be able to get 
there, and I think we are more confident today than we were 
then that the vouchers in 2011 could be leased up and utilized 
more quickly.
    Senator Bond. All right. But you have got over 100,000 
homeless veterans, and you are going to end it in 5 years, that 
means at the very least, you need to be doing 20,000 a year. If 
you are not using vouchers, how else are you dealing with the 
homeless veterans?
    Secretary Donovan. To be clear, and we have spent a lot of 
work and time with Secretary Shinseki and his team, our 
estimate is that through those 5 years, we would need in the 
range of an additional 30,000 VASH vouchers. So a total of 
60,000 we believe would be enough to get to the goal of ending 
veterans' homelessness because there are a whole set of other 
resources that are available.

                     HOMELESS PREVENTION RESOURCES

    Senator Bond. Where else are you putting them? That is the 
question. Where are they going?
    Secretary Donovan. In certain cases, homeless prevention 
resources or rapid re-housing resources are enough. Oftentimes 
for a family that is falling into homelessness, and we see that 
not just with veterans, a payment to help them with a security 
deposit, a short-term assistance can be enough to get them out 
of homelessness or to prevent homelessness.
    So you don't need a long-term permanent housing subsidy for 
a number of them. We also see them being served in our regular 
voucher program, in our other supportive housing programs. As I 
said, 1 in 10 in the roughly 100,000 supportive housing units 
we have around the country go to homeless veterans, and that 
number is increasing each year.
    So there is a range of resources. Section 8----

                      SECTION 202 ELDERLY HOUSING

    Senator Bond. I think we would like to have a report on how 
they are being dealt with, if not being dealt with through the 
voucher program. If you have got other ways, let us know that.
    And I had one other thing I need to ask on the regulatory 
problems. HUD has told us that 90 percent of the delay in 
section 202 elderly housing is the regulatory hurdles, and I 
would like to know what are the regulatory--have you got 
regulatory problems in getting out your vouchers in this or 
other programs? Would you please give us a general--submit for 
the record a general description of those regulatory hurdles 
and a timeline for solving those regulatory hurdles?
    Secretary Donovan. Yes, Senator, I am not sure where the 90 
percent--okay. On the staff level, there are substantial 
statutory issues as well.

                    REGULATORY AND STATUTORY HURDLES

    Senator Bond. Okay. Now that is--if you have got statutory 
issues, let us know. If you have got regulatory problems, solve 
them. And we want to help, but we would like--if there are 
problems, maybe we better have a fuller staff discussion.
    Secretary Donovan. I'm happy to do that.
    Senator Bond. If it is statutory, let us know. We want to 
solve it because those problems are--those programs are 
critically important. If it is a regulatory problem, we will 
get out our cattle prod and help you get those done. I have got 
some folks from the country who knows how to use one.
    Secretary Donovan. I am absolutely committed to doing that. 
I think HUD-VASH is a very good example of that, where you have 
been very clear of the need to accelerate this. Our teams have 
worked together. We have gotten a lot of those barriers out of 
the way, and we have seen a substantial improvement.
    And I just want to leave this by making very clear this 
administration believes that HUD-VASH has been a critical tool 
and that as we continue to make improvements believe that it 
can be a critical tool going forward.

                           ADDITIONAL FUNDING

    Senator Murray. So you can use additional funding in 2011?
    Secretary Donovan. I believe----
    Senator Bond. He is not supposed to say so, but we are 
going to give it to him anyway.

    Secretary Donovan. What I will say is I believe we are in 
much better position today than we were when we put our 2011 
budget together to be able to utilize that funding effectively. 
We still have issues to solve around the lease-up that we 
talked about earlier, and we will continue to push on those as 
well.

                       VERMONT HOMELESS VETERANS

    Senator Murray. Senator Leahy.
    Senator Leahy. Thank you.
    As I said earlier, I was glad to see both Secretaries here. 
Secretary Shinseki, I understand you are going to Vermont this 
weekend?
    Secretary Shinseki. Yes, Senator, I will be in Vermont on 
Sunday.
    Senator Leahy. It was gorgeous there this past weekend, but 
it can change rapidly. A couple of weeks ago, I was there on 
the weekend. We mowed the lawn. On Tuesday, we had little over 
2 feet of snow on it. So bad with that 2 feet of snow that 
the--we live on a dirt road, the local schools opened a half 
hour late. If it had gone to 3 feet, it would have been a whole 
hour late.
    I have often felt, Madam Chair, that if terrorists could 
learn how to make it snow, they could cripple Washington for 
the year.
    Now I would like to also, though, on a serious note, make 
mention of a community effort in Vermont to house homeless 
veterans that I thought you might find interesting. It is the 
Upper Valley Haven in White River Junction. They are going to 
open a new 20-bed adult shelter this spring. But it happened 
there were homeless veterans that would come to the VA 
hospital, which is nearby, to get care, but had no place to 
live. And half of the people at this shelter will be veterans.
    And Secretary Donovan, I mention this, too, because your 
Department is supporting the project through special purpose 
funds in your 2009 budget. And Secretary Shinseki, the local VA 
hospital staff, I compliment them. They have been 
extraordinarily helpful in this effort.

                           ALLOCATION PROCESS

    Now my question to Secretary Shinseki would be to hear your 
thoughts on the VA's process for allocating HUD-VASH vouchers. 
The first two rounds, Vermont was allocated 55 vouchers. Now, 
as I mentioned earlier, the Vermont State Housing Authority was 
invited to apply for 15 this new round. We have been very 
successful in utilizing this program. I am just curious why the 
tremendous cut down to only just over a dozen of them?
    Secretary Shinseki. Senator, let me defer to Secretary 
Donovan on this. The allocation is conducted by HUD. We do 
collaborate on this, for example, where we think more attention 
needs to be paid to the more rural areas. We are in dialogue, 
but ultimately, the decision is a HUD decision.
    Secretary Donovan. Senator, thank you for your question.
    I would just say the example that you cited, Vermont's 
housing community has been very creative in finding ways not 
just with HUD-VASH, but in other ways to serve homeless 
veterans. To be clear on the allocations, in 2008, there were 
20 HUD-VASH vouchers allocated to Vermont. In 2009, there were 
35. That is where the total 55 that you cited comes from.
    And the 2010 allocation was 15. So it is slightly lower 
than the 2008 and significantly lower than the one last year.
    Senator Leahy. Trust me, we could use more.
    Secretary Donovan. What we do each year is to look at our 
data on need, the number of homeless veterans in various 
geographies, and we determined this year, perhaps in part 
because of your effectiveness in using other tools as well to 
get veterans off the street, that a lower allocation was 
warranted. I would be happy to follow up with your team on more 
details on that need.

                            PROJECT RENTALS

    Senator Leahy. Yes, if you could. Also, the VA has wanted 
to allow VASH vouchers to be used for project-based rentals. 
The Vermont State Housing Authority asked the VA office in 
Boston last November if it can use project-based rentals, but 
it hasn't received a response yet. I know from Montpelier to 
Boston is almost 200 miles, but between November and May, you 
might mention to them, General, that a response would be nice.
    Secretary Shinseki. I will look into it, and I will get you 
a response.
    Senator Leahy. I am sure you will. Because we would like to 
look at this project based rental as a possibility, and of 
course, we have issues with the slow lease-ups in the VASH 
program. I think it is an area where we could work with others 
on this. And I think the VA could make a very strong statement 
on their homeless program by moving into a Housing First model. 
I think it could be done.

                     RURAL AREAS AND HOUSING FIRST

    I am not going to ask specific questions on it, but if both 
of you, if your staffs could work with mine on this, and again, 
there are areas that I see it as being especially helpful in 
rural areas, noncentralized areas, areas like our State is 
mostly rural. But every other State that is represented here 
has rural areas in it. We have not quite the population of 
South Dakota, but you are about eight times larger. So if I 
worry about our rural areas, I can imagine what yours are like.
    Secretary Shinseki. May I respond?
    Senator Leahy. Sure.
    Secretary Shinseki. Senator, regarding Housing First, I 
will credit our dialogue between Secretary Donovan and myself. 
Frankly, I had no background or much of a background in this 
area and I wasn't familiar with Housing First. Based on our 
discussions, I am convinced that it is a good way to go.
    And so, we are beginning to relook at our policies 
regarding Housing First versus anything else we have there. I 
think I am comfortable that this will come out to a good 
conclusion and I'm happy to follow up with your staff as well.
    Senator Leahy. That is music to my ears. Thank you.
    Secretary Shinseki. Okay. And on the rural issues, we have 
been in dialogue, both Secretary Donovan and I, on paying 
attention to the rural areas. And I think what I can tell you 
in grant per diem programs, 14 percent of our total funding 
have been dedicated to rural areas specifically.
    We do, with the support of this subcommittee, have an 
opportunity to run a prevention pilot with both VA and DOD 
collaborating. It is a 3-year multisite pilot. HUD will select 
the sites. It targets rural communities. VA has the normal 
responsibility of coming up with case management.
    We think it will begin in the fourth quarter of this year, 
and we think we will get as many as 210 veterans and families 
in the current year, this year, and then look for about 840 
veterans and families in 2011. So we are paying attention to 
the rural aspects of the challenge.
    Senator Leahy. Thank you very much.
    Thank you.

                      PROJECT-BASED VOUCHER PILOT

    Senator Murray. Thank you.
    Secretary Donovan. If I could just add very briefly? We are 
also implementing, thanks to your work on the HEARTH Act, the 
first-ever comprehensive rural homelessness program, and that 
will be introduced this year for the first time, given the 
differences and the challenges.
    And also, I think, Senator Leahy, you may have had to be 
away from the hearing for a moment when I mentioned earlier 
that we are planning to implement for the first time ever a 
project-based HUD-VASH voucher pilot with 400 vouchers this 
year. It will be competitive because we do recognize that the 
project-based types of examples that you are talking about have 
been quite effective in certain places.
    Senator Murray. Thank you.
    We do want to get to our second panel. I have an additional 
question for each of you. I know Chairman Johnson does, and I 
assume Senator Bond may have additional questions.
    Senator Bond. We are going to have a bunch for the record.
    Senator Murray. For the record. Okay.
    Senator Bond. We won't be ignored.
    Senator Murray. Well, Secretary Shinseki, I just wanted to 
ask you quickly, you have talked about some of the really hard 
to serve, chronically homeless veterans, and you are open to 
some innovative programs such as, the Housing First model you 
just talked about. That is great.

                            CULTURAL CHANGE

    But we are hearing that at some of the VA medical centers, 
the culture there is a little bit harder to change. What are 
you doing to really make sure that the changes are implemented 
down at the ground?
    Secretary Shinseki. Well, we are. I work that at my level 
through the system, but as I go around and visit, it is 
checking to make sure that the word is getting there. We are 
working on the culture to change, advocacy is a major culture 
change. But accepting that dealing with homelessness is our 
issue, we have to solve it, and we will.
    Senator Murray. Okay. Well, it is important to keep 
remembering that all the good words from back here have to go 
all the way down to the bottom to make it work.
    Secretary Shinseki. I do.

                   PILOT PROGRAM ON HOMELESS VOUCHERS

    Senator Murray. I think you know that.
    Secretary Donovan, I wanted to ask you, our subcommittee 
actually had a hearing on homeless veterans a couple of years 
ago. It was very clear that a lot of our returning veterans are 
facing some unemployment issues and we know that that is one of 
the keys to dealing with homelessness in the long run. We are 
concerned about prevention, and part of that our subcommittee 
provided a pilot program on prevention, funding for that, 
directing you to work with the Department of Labor and others. 
Can you tell me how that is going?
    Secretary Donovan. I think Secretary Shinseki talked very 
briefly about it. If I could expand, it is in the final stages 
of clearance through the administration. We do expect to have 
it, be able to announce it within the coming weeks.
    We have worked very closely with the National Guard and the 
Reserves, looked at the data particularly on veterans returning 
from Iraq and Afghanistan because so many of the job issues do 
face recent returnees as well, to try to target them 
geographically in terms of the way that we would distribute it. 
And I would say not just in the demonstration itself, but more 
broadly, through the process of the Interagency Council, Hilda 
Solis, who is the Vice Chair of the Council, has been just a 
magnificent partner.
    And I think whether it is through Recovery Act training 
dollars and a range of other opportunities, she has been a 
wonderful partner to ramp up those efforts to connect veterans 
to jobs, and that is something that Secretary Shinseki has been 
very focused on as well.
    Senator Murray. Okay. I appreciate it, and Chairman 
Johnson.

                 BUILDING UTILIZATION REUSE AND REVIEW

    Senator Johnson. Secretary Shinseki, last year, we provided 
an additional $50 million in military construction for the VA 
to renovate empty buildings on VA campuses to be used for 
community-operated homeless programs. What is the status of 
this initiative, and is the VA considering creating permanent 
housing for homeless vets on VA campuses?
    Secretary Shinseki. Thank you, Mr. Chairman.
    A good question and an important one, we call this our BURR 
program, Building Utilization Reuse and Review.
    Thanks to the work of Congress, we received $50 million 
that was provided by Mil Con. We have put it to work with these 
priorities--increased housing opportunities, specifically 
looking at patients with polytrauma diagnosis; preventing 
homelessness for veterans who are in their own homes, but who 
may be at risk of being homeless, using this to keep them 
stable; and then reducing the current homelessness veteran 
population. So those are the three pieces of it.
    We started with 49 sites that were designated through a 
site review process. I can tell you that 18 sites are under 
development. Five contractors, developers have been selected. 
RFPs have been issued. RFPs are under review, and there are six 
pending requests for proposals, RFPs. Eight sites are moving 
forward in Salem, Virginia; Ashville, Bay Pines, and Lake City, 
Florida; Danville, Illinois; Long Beach, California; Des 
Moines, Iowa; and Menlo Park.
    So we have gotten to identifying locations. Three sites 
have been designated for assisted living, and then 20 sites are 
still under further study. So that is sort of the stamp of 
where we are today.

                            HOUSING OPTIONS

    Senator Johnson. Secretary Donovan and Secretary Shinseki, 
there seems to be a growing discussion over a permanent housing 
approach versus a transitional approach. Can you give us your 
thoughts on both approaches and what you believe is the best 
path forward in terms of housing programs over the next 10 
years?
    Secretary Shinseki. Mr. Chairman, I think this touches a 
little bit also on Senator Bond's question about why aren't you 
looking for 100,000 HUD-VASH? I think we need a combination of 
options here.
    I think moving people, getting people out of homelessness, 
is sort of a journey and not trying to go from zero to 60 too 
quickly. There is a requirement for temporary housing. There is 
a certain requirement for transitional housing. Then, as you 
deal with the more serious cases, of course, you will have to 
have permanent housing with supportive services.
    I think both of us would point out that in the long term, 
prevention is probably the best way to go that if we can keep 
people stable in their current houses and help them through the 
rough period, it is good for them. And in the long run, it is a 
more efficient process.
    When we are not able to do that, then our effort should be 
to as quickly as possible turn them around and get them back 
into either their housing or a permanent situation, that the 
longer they live on the streets in a homeless situation, things 
happen, and people change. And this is where the definition of 
chronic homelessness sets in.
    If they are on the streets for a year, I think we call them 
chronically homeless, not because it is just a term, but 
because things begin to change, their attitude and makeup. And 
so, we want to avoid that. Or folks who have 4 homeless 
incidents in 3 years also meet this standard of chronic 
homelessness. So it is more than just a tag term. There is 
something about long-term homelessness that goes with that 
chronic identification.
    So keep people in homes by prevention first, or a quick 
turn, and this is where rapid re-housing, I think, is HUD's 
solution to the program. We have learned from that. We have 
created our version of it, and it is called Support Services to 
Veterans' Families. It is in the 2011 budget.
    But we need to get people very quickly back and not let 
them live on the streets for an extended period of time. And 
then when you are not able to do that, then you have the rest 
of the options to include HUD-VASH. I think you need a 
combination of all. I think we will get better at establishing 
exactly where the balance is.
    And I think, in reality, at the end of the 5-year mark, the 
veterans we will be dealing with would be the hard to serve 
cases for the most part. That if we have been successful, as we 
intend to be, in the rest of this, we will have the very tough 
cases at the end. We are going to have to really be at the top 
of our game while we will learn over the next 2 or 3 years.
    Secretary Donovan. I think Secretary Shinseki has said it 
well. It is about finding the right solution for the individual 
or the family, and that really varies. And I think one of the 
reasons we have been able to make so much progress on chronic 
homelessness, why the numbers the Secretary gave you earlier 
about the progress on veterans' homelessness as well is a lot 
of it is about targeting.
    Collaborating across agencies and being able to really say 
here is an individual who has been chronically homeless, and 
what--the solution for them is going to be different from a 
family that with just a month's rent or a security deposit or 
even a utility bill, if they are in housing already and at risk 
of losing it, can be a more effective solution for them and 
much cheaper for the taxpayer in the long run. And so, it 
really is about that targeting.
    Other than that, I would just say one other thing, which is 
that I think we have learned over time that permanent housing 
is something that can work faster and more effectively than we 
might have thought for even some of the most difficult to 
serve. And that is where I think this Housing First model is so 
critical.
    There will continue to be needs for transitional housing, 
as we have said, but making sure that the emphasis is not on 
putting a Band-Aid on the solution with a shelter bed, by 
making sure that we are getting to the long-term solutions. And 
oftentimes, getting somebody stably housed in a permanent 
housing situation first can lead to much longer-term benefits. 
It gives them a stable platform to be able to deal with many of 
the other issues in their lives that too often in the past we 
have said to them, well, go deal with those issues first and 
then come back, and we will find you a permanent housing 
solution.
    We have been able to reverse that with the Housing First 
approach, and it has been very, very effective in a large 
number of cases.
    Senator Murray. Thank you.
    Senator Bond, did you want to submit----
    Senator Bond. No, thank you.
    Senator Murray. Okay. Well, I would like to thank both 
Secretary Donovan and Secretary Shinseki for the tremendous 
work on this, and you can see both of these subcommittees, 
bipartisan, are going to be working with you very directly to 
continue to work on this.

                     ADDITIONAL COMMITTEE QUESTIONS

    So thank you. And again, we will have questions submitted 
for the record that we would like responses from both of you.
    Thank you.
    Secretary Donovan. Thank you and congratulations for your 
leadership on this. You have been a remarkable leader, as the 
whole subcommittee has. Thank you.
    Secretary Shinseki. Thank you very much.
    Senator Murray. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
              Questions Submitted to Hon. Eric K. Shinseki
           Questions Submitted by Senator George V. Voinovich
    Question. What progress is being made in the hiring of more female 
doctors and psychological counselors within the VA Medical System?
    Answer. Females currently make up 33.65 percent of physicians in 
VHA thus far in fiscal year 2010. This is the highest level in the last 
5 years, ranging from 29.64 percent in fiscal year 2005 to 33.24 
percent at the end of fiscal year 2009.
    The percentage of female physicians hired has increased over the 
last 5 years from 34.64 percent in fiscal year 2005 to 37.24 percent in 
fiscal year 2009, and is now at 38.11 percent in fiscal year 2010.
    Females make up 55.91 percent of onboard psychologists (0180 
series) in VHA, and they've been over 50 percent for this occupation 
since 2008. Hiring for this occupation is currently at 61.57 percent 
female so far in fiscal year 2010, which is slightly down from last 
year's female hiring of 64.59 percent.
    Question. Has the VA given any consideration to partnering with the 
Department of Defense to take over the entire military discharge and 
release from duty processing?
    Answer. VA works closely with the Department of Defense (DOD) to 
transfer military treatment records through the Pre-discharge programs. 
However, VA has not considered partnering with DOD to take over the 
entire military discharge and release from duty process because this 
process contains DOD functions that are not related to VA. For example, 
VA cannot take over DOD functions such as determining the character of 
discharge, preparing the Certificate of Discharge (DD214), or arranging 
the transfer of household goods.
    Question. What progress is being made with the pilot program 
underway (in which Cuyahoga Community College in Cleveland Ohio will be 
participating) that brings VA benefit counselors to college campuses on 
a regularly scheduled basis?
    Answer. VA's Vocational Rehabilitation and Employment (VR&E) 
program initiated the VetSuccess on Campus pilot program, which 
provides outreach and transition services to the general veteran 
population during their transition from military to college life.
    VetSuccess on Campus is available to veterans enrolled at three 
colleges: University of South Florida, San Diego State University, and 
Cleveland State University. The following are the proposed sites for 
the expansion of the VetSuccess on Campus pilot: Community College of 
Rhode Island, Rhode Island College, Arizona State University, and Texas 
A&M (Killeen) at Ft. Hood. Cuyahoga Community College is not 
participating in the pilot program at this time.
    The role of the VetSuccess on Campus Vocational Rehabilitation 
Counselor (VRC) is to liaison with the VA certifying officials, perform 
outreach, and communicate with veteran-students ensuring their health, 
educational, and benefits needs are met, resulting in the completion of 
their degrees. The VRC provides vocational testing, career and academic 
counseling, and adjustment counseling to resolve problems interfering 
with completion of education programs and entrance into employment. 
Presently, the combined veteran population served at the three pilot 
sites is more than 2,600.
    Question. Is the VA going to expand its program of more community 
based Outreach and Medical facilities? I'm pleased to note one of these 
new medical facilities is opening in Parma, Ohio. Are more of these 
community based medical & psychological care facilities being planned?
    Answer. Between fiscal years 2008 and 2009, VA increased the number 
of Community-Based Outpatient Clinics (CBOCs) by 28 to a total of 783 
CBOCs. VA is activating 79 new CBOCs in fiscal year 2010. Over the past 
few years, VHA has increased the rigor with which it identifies high 
priority markets for access expansion. On an annual basis, VHA 
identifies those markets that have a combination of limited geographic 
access and projected increased demand for primary care and outpatient 
mental health services, since these are the services predominately 
provided in CBOCs. These markets are then ranked and a special emphasis 
is placed on planning to meet the needs of veterans in these high 
priority markets.
    The Veterans Health Administration (VHA) is the largest integrated 
provider of care in the country, with over 5.5 million veterans each 
year receiving care at over 1,100 locations, including inpatient 
hospitals, healthcare centers, and community based outpatient clinics 
(CBOCs).
    Question. Is the VA partnering in any way with the Department of 
Labor--or for that matter any private sector partners--on programs that 
provide construction skills training to homeless veterans? I'm 
particularly interested in learning about any programs where homeless 
vets would be taught construction apprenticeship skills that would then 
allow them to rehab older properties in cities such as Cleveland to 
then be used as either permanent or transitional housing for homeless 
veterans.
    Answer. VA's Vocational Rehabilitation and Employment (VR&E) 
program implemented a national partnership with the Department of Labor 
(DOL) and State Workforce Agencies (SWA), which began with a pilot 
demonstration project in January 2008 at eight locations: Denver, 
Little Rock, Manchester, Montgomery, Oakland, Philadelphia, St. Louis, 
and St. Petersburg. This national partnership with DOL and SWA was 
fully implemented in December 2008.
    All veterans receiving VR&E services to obtain employment are 
referred to their local SWA to receive services from the Disabled 
Veteran Outreach Program Specialist, Local Veterans' Employment 
Representative, and Intensive Services Coordinator. Additionally, VR&E 
Employment Coordinators work with DOL and SWA to assist veterans with 
securing suitable career employment.
    Our Partnership with DOL is inclusive of their Office of 
Apprenticeship State Office. DOL's Registered Apprenticeship program 
complements VR&E's On-theJob Training program by providing veterans a 
combination of classroom instruction and practical on-the-job training. 
VA's payment of subsistence allowance supplements the veteran's 
apprenticeship income. Registered apprenticeships are available in all 
50 States and U.S. territories.
    In June 2010, VA conducted initial meetings with the Habitat for 
Humanity, Montgomery County, Maryland, to explore the possibility of a 
partnership within the District of Columbia, Virginia, and Maryland 
areas. Preliminary discussions included the Habitat for Humanity's 
program that would provide the necessary training in construction 
skills for veterans that could enable them to assist in the building 
and rehabbing of properties that could potentially be used as either 
permanent or transitional housing for homeless veterans. Follow up 
meetings are planned to evaluate these possibilities.
                       NONDEPARTMENTAL WITNESSES

    Senator Murray. With that, we are going to ask our second 
panel to come forward. And while they are approaching, we will 
be taking testimony in the order of Ms. Barbara Poppe, who is 
the Executive Director of the U.S. Interagency Council on 
Homelessness; Mr. Stephen Norman, executive director of the 
King County Housing Authority and vice president of the Council 
on Large Public Housing Authorities; and Mr. Mike Brown, a 
formerly homeless veteran and case manager for VA Grant and Per 
Diem Program, located in Walla Walla, Washington.
    Senator Murray. Again, welcome to all of our panelists. Ms. 
Poppe, we will begin with your testimony.
STATEMENT OF BARBARA POPPE, EXECUTIVE DIRECTOR, U.S. 
            INTERAGENCY COUNCIL ON HOMELESSNESS
    Ms. Poppe. Chairman Murray, Chairman Johnson, and Ranking 
Member Bond, and distinguished members of the subcommittee, 
thank you for the opportunity to share the vision and work that 
this administration is undertaking to achieve the goal of 
ending homelessness for veterans, as well as for children, 
youth, families, and single adults who experience homelessness 
in our country.
    I will outline the highlights of my written testimony, 
which has been submitted to the record.
    Senator Murray. And all of your testimony will be put in 
the record.
    Ms. Poppe. It is my honor to serve as the Executive 
Director of the United States Interagency Council on 
Homelessness. The mission of the Council is to coordinate the 
Federal response to homelessness and to create a national 
partnership at every level of Government and with the private 
sector to reduce and end homelessness in the Nation while 
maximizing the effectiveness of the Federal contribution.
    The Council consists of 19 Federal agencies with HUD 
Secretary Shaun Donovan serving as the current Chairman and 
Labor Secretary Hilda Solis as the Vice Chair. Following a very 
historic meeting yesterday of the full Interagency Council, I 
would like to report that we are very close to finalizing the 
first-ever Federal strategic plan to prevent and end 
homelessness, as was mandated by the HEARTH Act just a year 
ago.
    Over the last few months, there have been extensive high-
level discussions and unprecedented collaboration. I want to 
thank Secretary Donovan and Secretary Shinseki for the very 
hard work that they and their staffs have dedicated to our 
joint efforts over the past few months in crafting the plan. We 
expect to deliver the plan to the President and the Congress 
quite shortly.
    The increase in homelessness over the past three decades, 
as you know, is the result of the convergence of three key 
factors. First, the loss of affordable housing, combined with 
the rising housing costs. Second, household incomes that are 
simply insufficient to meet basic needs. And finally, the 
closing of State psychiatric institutions without the 
concurrent creation of community-based housing and services.
    Veterans, as you know, are disproportionately represented 
among those experiencing homelessness. The targeted efforts of 
VA, HUD, and others have achieved positive results recently, 
driving both the numbers and the percentage of veterans in the 
ranks of homelessness down.
    Despite these impressive efforts, however, there still 
remain between 44,000 and 66,000 veterans who experience 
chronic homelessness. Research indicates that those serving in 
the late Vietnam and post Vietnam era are at greatest risk of 
homelessness. Veterans returning from the current conflicts in 
Afghanistan and Iraq often, as you have noted, have severe 
disabilities that are known to be correlated with long-term 
unemployment, which predispose people to homelessness.
    The keys to success and stability, though, are found in a 
permanent, affordable home, paired with sufficient income and 
access to healthcare and community-based services that can be 
provided by the VA, as well as others. In the last decade, by 
combining housing and supportive services to create permanent 
supportive housing, the number of chronically ill, long-term 
homeless persons has been cut by a third nationwide.
    And despite the current economic crisis, the U.S. 
Conference of Mayors has shown that that number has remained 
stable and even declined. Without access, though, to stable 
housing and services, individuals bounce from one emergency 
system to the next, from streets to shelters, to public 
hospitals, to psychiatric institutions and detox centers, and 
back to the streets, seemingly endlessly.

                                HUD-VASH

    There is an extremely high cost of this cycle of 
homelessness in human and economic terms. HUD-VASH is a 
critical component to addressing the housing and services needs 
of chronically homeless veterans, as well as veterans with 
disabilities, including mental illness.
    HUD and the VA have been working extremely hard in the 
partnership to make this program a success for those veterans 
who need permanent supportive housing. In the months that I 
have been here, I have been impressed with the progress being 
made to increase the enrollment, the lease-up, as well as the 
adoption of best practices around Housing First.
    Recognizing the risk of transitioning into civilian life, 
the Department of Defense, VA, and Labor are working together 
to make this transition more seamless. This collaboration 
includes the development of processes to support electronic 
transmission of service and healthcare records. Service members 
can address their housing needs as well as employment, 
benefits, and other essentials as part of their individual 
transition plan. Successful implementation of this process will 
do much to prevent future homelessness among our returning 
soldiers.

                            RAPID RE-HOUSING

    Another best practice, though, that has proven to be very 
successful in communities across the country, particularly 
among families, is rapid re-housing. Rapid re-housing is an 
outcome-oriented, housing-focused strategy that could also 
assist veterans experiencing homelessness. This strategy is 
based on the principle that individuals and families first need 
housing to provide the foundation to address other needs, like 
education, training, or treatment. Permanent housing is the 
base that makes stability and well-being possible.
    Finally, we do all live locally. And so, housing and 
services must work at the community level if we are to be 
successful in ending veterans' homelessness. Partnerships 
between the nonprofit and public sectors must work in a more 
integrated manner. I appreciate the opportunity to speak to you 
today about veterans' homelessness, and I look forward to 
working with you on ending homelessness for veterans, as well 
as all others, through the Federal strategic plan to prevent 
and end homelessness.

                           PREPARED STATEMENT

    We do have our work cut out for us, but I am certainly 
buoyed by the commitment that has been shown by your 
subcommittee, by each of you personally, and by Secretaries 
Donovan, Shinseki, and the President. By working together, 
breaking down silos at Federal, State, and local levels, we can 
and will make progress.
    I look forward to your questions. Thank you.
    [The statement follows:]
                  Prepared Statement of Barbara Poppe
    Chairman Murray, Chairman Johnson, Ranking Member Bond, Ranking 
Member Hutchison, and distinguished members of the two subcommittees, 
thank you for the opportunity to share the vision and work that this 
administration is undertaking to achieve the goal of ending 
homelessness for veterans as well as for children, youth, families and 
single adults experiencing homelessness.
    It's my honor to serve my country as the Executive Director of the 
United States Interagency Council on Homelessness in this time of 
special focus on better meeting the needs of veterans. I was appointed 
by the Council in October and began the position on November 16, 2009. 
With more than two decades of nonprofit experience in homelessness and 
housing--from direct service to program director to executive 
leadership to most recently as a system leader--I am now working to 
align Federal policy with best practices in community responses to 
homelessness. The mission of the Council is to coordinate the Federal 
response to homelessness and to create a national partnership at every 
level of government and with the private sector to reduce and end 
homelessness in the Nation while maximizing the effectiveness of the 
Federal Government in contributing to the end of homelessness. 
Department of Housing and Urban Development Secretary Shaun Donovan is 
the current Chairman and Department of Labor Secretary Hilda Solis is 
the current Vice Chair of the Council, which includes 19 Federal 
agencies. We are completing the HEARTH Act mandate to develop a Federal 
Strategic Plan to Prevent and End Homelessness. In addition to the 
implementation of the Plan, USICH will be:
  --Establishing and maintaining effective, coordinated, and supportive 
        relationships with each Federal agency;
  --Organizing and supporting State/tribal/local/communities to 
        effectively implement local plans;
  --Developing means to provide an effective portal to Federal programs 
        and initiatives;
  --Establishing and maintaining effective communications with 
        Congress;
  --Aggregating and promoting research/evaluations and manage 
        accountability/results; and
  --Establishing effective partnerships with the public and private 
        sector stakeholders.
    I want to thank Secretary Donovan, Secretary Shinseki, and 
Secretary Solis for the hard work that they and their staffs have 
dedicated to our joint efforts over the past few months in crafting the 
Federal Strategic Plan. As Appropriators, your work and commitment to 
the Plan's implementation will be critical to its success as well and I 
look forward to engaging you and your respective staffs in the months 
ahead. We expect to deliver the plan to the President and Congress 
shortly.
    Today, I will talk about homelessness in general, and then turn to 
speak specifically about homelessness among veterans, what can and is 
being done to improve their circumstances. I will then discuss the 
development of the Plan and our stakeholder input process.
             overview of homelessness in the united states
    Thirty years ago, homelessness was predominantly experienced by 
single adults--mostly men. Homelessness among families, youth, and 
children did not exist in the same way it does today. Economic 
downturns have historically led to an increase in the number of people 
experiencing homelessness. In the last three decades, however, the 
number of people experiencing homelessness has remained high even in 
good economic times.
    From years of practice and research, we know what works to end 
chronic homelessness. Evidence points to the role housing plays as an 
essential platform for human and community development. Over the past 5 
years, the public and private sectors have made remarkable progress in 
reducing chronic homelessness. By combining permanent housing and a 
pipeline of support services, we've reduced the number of chronically 
ill, long-term homeless individuals by nearly one-third in the last 5 
years. Stable housing is the foundation upon which people build their 
lives--absent a safe, decent, affordable place to live, it is next to 
impossible to achieve good health, positive educational outcomes, or 
reach one's economic potential. Indeed, for many persons living in 
poverty, the lack of stable housing leads to costly cycling through 
crisis-driven systems like foster care, emergency rooms, psychiatric 
hospitals, detox centers, and jails. Keeping people out of homelessness 
in the first place or getting them back into housing as quickly as 
possible is cost effective and the right thing to do.
    Increases in homelessness over the past decades are the result of a 
convergence of three key factors: The loss of affordable housing and 
rising housing costs; household incomes that are insufficient to meet 
basic needs; and the closing of State psychiatric institutions without 
the concomitant creation of community-based housing and services.
    Lack of access to affordable housing is a significant problem for 
households at the lowest economic levels. Renter households earning 
less than 30 percent of median income face the tightest housing market. 
According to a HUD Study on U.S. Housing Rental Statistics, from 2001 
to 2007 the Nation's affordable unassisted rental housing stock 
decreased by 6.3 percent, while the high-rent rental housing stock 
increased 94.3 percent. This translates into a loss of more than 1.2 
million affordable unassisted rental units from 2001 to 2007.
    Without steady income, maintaining housing is not feasible. The 
recession of the past 2 years has had a major negative impact on 
families with the loss of jobs or opportunities for new employment. It 
has led to a rise in family homelessness especially in suburban and 
rural areas. Personal financial crises such as major healthcare costs 
or other sudden costs can cause housing instability or homelessness. 
The economic circumstances of households below 30 percent of area 
median income generally are not affected by changes in the economy.
    For a segment of those who are homeless, mental illness and lack of 
proper care lead to homelessness. Without the proper supports, these 
individuals may not be able to maintain their housing over time even 
with a housing subsidy.
    HUD's 2008 Annual Homeless Assessment Report (AHAR) documents that 
on a single night, 664,000 people were homeless, the majority of whom 
were homeless due to lack of income but includes those temporarily 
homeless due to natural disaster. Of those, 58 percent were sheltered 
(living in emergency shelter or in transitional housing), 42 percent 
were unsheltered (on the streets, camping outdoors, or living in cars 
or abandoned buildings). Single individuals made up 62 percent and 
people who presented within family groups were 38 percent. Over the 
course of the year, the AHAR reports approximately 1.6 million people 
used emergency shelters or transitional housing programs. Most had 
relatively short lengths of stay in emergency shelters.
    Over the course of 2008, people accessing shelters and transitional 
housing programs were individual adults (58 percent). Close to three-
quarters were men. Forty-three percent of sheltered adults without 
families had a disabling condition and 13 percent were veterans.
                      homelessness among veterans
    In 2009, the Department of Veterans Affairs (VA) estimated 107,000 
homeless veterans on any given night through its Community Homeless 
Assessment Local Education and Networking Groups (CHALENG). This 
represented an 18 percent reduction from the 2008 estimate of 131,000 
veterans on any given night. This reduction represents a significant 
step toward achieving VA's goal of eliminating homelessness among 
veterans. But more remains to be done.
    We know that veterans accounted for a larger proportion of those 
experiencing homelessness compared to the overall population. In the 
past, the targeted efforts of the VA, HUD and others has had positive 
results driving both the numbers and percentage of veterans in the 
ranks of the homeless down. However even with the impressive efforts, 
approximately 44,000 to 66,000 veterans were believed to be 
experiencing chronic homelessness a year ago.
    This population is composed of veterans from different conflicts, 
ranging from World War II to the current conflicts. Though research 
indicates that those serving in the late Vietnam and post-Vietnam era 
are at greatest risk of homelessness, veterans returning from the 
current conflicts in Afghanistan and Iraq often have severe 
disabilities that are known to be correlated with homelessness.
    According to a 2007 study by the National Alliance to End 
Homelessness and the Homelessness Research Institute, nearly one-half 
million (467,877) veterans were severely rent burdened which means they 
were paying more than 50 percent of their income for rent. More than 
one-half (55 percent) of veterans with severe housing cost burden fell 
below the poverty level and 43 percent were receiving foods stamps. 
Female veterans, veterans with a disability, and veterans that are 
unmarried or separated were more likely to experience severe housing 
cost burden. There are also differences by period of service, with 
those serving during the Korean War and WWII more likely to have severe 
housing cost burden than veterans who served during other periods of 
service.
    Many veterans and their families have severe rent burdens, and as 
with other populations, this is a risk factor for homelessness. The new 
Supportive Services Grants for Low Income Veterans and Families is a 
step in the right direction to help these veterans and one that will 
aid many low-income veteran families from ever becoming homeless. 
Closing the front door that leads to homelessness is an important step 
toward ending veteran homelessness.
    Causes of homelessness among veterans are similar to causes of 
homelessness among non-veterans (i.e. shortage of affordable housing, 
no or limited incomes, and health issues). Pre-military service 
experiences have a significant effect on risk of homelessness including 
physical or sexual abuse as a child, other traumatic experiences, or 
foster care. Some have experienced sexual abuse and trauma during and/
or prior to military service. In 2007, 22 percent of women veterans who 
used the VA for healthcare screened positive for Military Sexual Trauma 
(MST). For all veterans, greater attention is being paid to the needs 
of their families and children by the VA and the community at large.
    Veterans have high rates of Post Traumatic Stress Disorder (PTSD), 
traumatic brain injury (TBI), and sexual trauma, especially for women. 
Returning veterans from Iraq and Afghanistan have even higher rates 
possibly associated with repeated deployments. These factors 
significantly impact the ability to form trusting relationships. PTSD 
may also contribute to substance abuse problems and relapse. Other 
mental or behavioral health problems and/or TBI may result in cognitive 
impairments (difficulties with concentration or remembering tasks), 
difficulties in social relationships, controlling temper or impulses, 
or other effects that may create barriers to employment and stable 
relationships. Multiple and extended deployments may contribute to 
unemployment and/or damage to family connections and family conflict 
upon return. A majority of veterans who are homeless are single; social 
isolation is associated with higher risk of homelessness. There is an 
increasing number of Iraq and Afghanistan veterans who are women who 
are homeless or at risk of becoming homeless, and many of whom are 
caring for young children.
    Homelessness exacerbates poor physical and behavioral health and 
increases peoples' contact with the criminal justice system. One-half 
of homeless veterans had histories of involvement with criminal justice 
after discharge from the military. Incarcerated homeless veterans have 
high levels of physical and mental health and/or substance abuse 
problems. About one-half of homeless veterans have serious mental 
illness; 70 percent have substance abuse problems; over one-half have 
other health problems.
    Combat introduces additional factors from post-traumatic stress. 
Like other populations, the complexity of navigating systems makes it 
difficult for veterans to get their needs met. There are unique and 
robust programs and supports available for veterans. Although for some, 
their lack of awareness about programs or their ambivalence about 
seeking care may keep them from receiving these services. In some 
cases, their military discharge status or lack of records may create 
complications in accessing services. Veterans need the same basics--
affordable housing, jobs, further education or training, and access to 
health and behavioral healthcare--that other single adults or families 
need. Veterans experiencing chronic homelessness benefit from access to 
permanent supportive housing as well as comprehensive healthcare and a 
unique array of benefits.
                        interventions that work
    Recognizing the risk of transitioning into civilian life, the 
Departments of Defense, Veterans Affairs, and Labor are working 
together to make this transition more seamless. This collaboration 
includes the development of processes to support electronic 
transmission of service and healthcare records. Service members can 
address their housing plans--as well as employment, benefits and other 
essential needs--as part of their Individual Transition Plan. The 
Department of Defense has emphasized that post-service education and 
training can play a critical role toward preventing homelessness for 
veterans. This is essential if service members want to remain 
competitive in the 21st century job market. Education and training 
serve as gateways that lead to sustainable employment that provides the 
economic support needed to keep a veteran from becoming homeless. The 
Department of Labor includes a module on homelessness in its Transition 
Assistance Program (TAP) employment workshop.
    For most veterans experiencing homelessness, the keys to success 
and stability are found in a permanent, affordable home paired with 
sufficient income and access to healthcare and community-based services 
provided by the VA and others.
    In the last decade, our country made great progress in developing 
new approaches to tackle chronic homelessness--a disproportionate 
number are veterans. By combining housing and supportive services to 
create permanent supportive housing the number of chronically ill long-
term homeless persons has been cut by nearly one-third. And despite the 
current economic crisis, a recent report by the U.S. Conference of 
Mayors showed that the number of chronically homeless individuals has 
remained stable and even declined. As we move forward with the Federal 
Strategic Plan to Prevent and End Homelessness, permanent supportive 
housing for chronically homeless persons offers considerable potential 
to address homelessness in general, as well as better use of health 
resources. The vast majority of chronically homeless persons have a 
serious mental illness, substance abuse disorder or physical 
disability. Permanent supportive housing provides wrap around services 
and is different than regular affordable housing that would fit the 
needs of the broader population experiencing homelessness.
    There is extensive support for permanent supportive housing as the 
preferred strategy for addressing chronic homelessness unlike 
strategies for other targeted populations such as families with 
children and youth. Supportive housing is proven to help people who 
face the most complex challenges--individuals and families who are not 
only homeless, but who also have very low incomes and serious, 
persistent issues that may include substance abuse, mental illness, and 
HIV/AIDS--to live more stable, productive lives. Without a stable place 
to live and a support system to help them address their underlying 
problems, most people who are homeless bounce from one emergency system 
to the next--from the streets to shelters to public hospitals to 
psychiatric institutions and detox centers and back to the streets--
endlessly. There is an extremely high cost of this cycle of 
homelessness in human and economic terms.
    There are three key research findings: First, chronically homeless 
persons constitute a finite and aging population; second, permanent 
supported housing is effective at promoting residential stability among 
this population; and third, the cost of providing permanent supported 
housing can be partially or entirely offset by substantial reductions 
in the utilization of expensive acute care services such as emergency 
department visits, inpatient medical or psychiatric hospitalizations, 
detoxification services, and shelter and jail stays.
    An article published 2 years ago in the Journal of the American 
Medical Association centered on Seattle's 1811 Eastlake supportive 
housing project, run by the Downtown Emergency Service Center. The 
researchers studied 75 of the center's chronically homeless residents--
one-half of whom had serious mental illness and all of whom struggled 
with alcohol addiction.
    In the year before participants in the program entered supportive 
housing, the 75 residents collectively spent more than 1,200 days in 
jail, and visited the local medical center more than 1,100 times at a 
cost to Medicaid of more than $3.5 million.
    In the year after participants entered 1811 Eastlake, days spent in 
jail were cut almost in half. Medicaid costs had dropped by more than 
40 percent because hospital visits had dropped by almost one-third.
    HUD VASH is a critical component to addressing the housing and 
service needs of chronically homeless veterans. HUD and the VA have 
been working extremely hard in partnership to make this program a 
success for the veterans who need permanent supportive housing.
    Twenty thousand vouchers are available across the country. Priority 
populations for HUD-VASH include veterans who are experiencing chronic 
homelessness and who suffer from a mental illness and homeless veterans 
with families. Currently, approximately 19,000 veterans have been 
identified and accepted into HUD-VASH case management and 13,000 are 
leased.
    A significant benefit of HUD-VASH is that it offers services to 
homeless veterans and their families, keeping them together as they 
transition out of homelessness and the veteran receives needed 
treatment. At present projections, nearly 2,250 homeless women veterans 
will be occupying HUD-VASH apartments when all of the 20,000 vouchers 
are leased up. Current projections also indicate that nearly 4,000 
children of veterans will be housed with their veteran parent through 
HUD-VASH.
    HUD and VA are working in a strong collaborative effort to get an 
additional 10,000 vouchers with case management available in fiscal 
year 2010. In an effort to make HUD-VASH more efficient and to improve 
access to the program, the VA is doing the following: adjusting the 
case management ratio to 25:1, adding substance abuse specialty to the 
case management team, and partnering with known and proven community 
providers to target and case manage veterans receiving services in HUD-
VASH.
        public comment and engagement on federal strategic plan
    Beginning in early February, the new USICH team has done outreach 
across the country virtually and in person, that has informed the 
development of the first ever comprehensive Federal Strategic Plan to 
Prevent and End Homelessness that was mandated by the HEARTH Act of 
2009. This Plan will be delivered to Congress soon.
    The Federal Strategic Plan to Prevent and End Homelessness will 
serve as a roadmap for joint action by Council agencies to guide the 
development of programs and budget proposals toward a set of measurable 
targets. The Plan will reflect interagency agreement on a set of 
priorities and strategies the agencies will pursue.
    USICH has centered the Plan on the belief--the moral foundation--
``no one should experience homelessness--no one should be without a 
safe, stable place to call home.'' We affirmed six core values to be 
reflected in the plan:
  --Homelessness is unacceptable
  --There are no ``homeless people'', but rather people who have lost 
        their homes who deserve to be treated with dignity and respect
  --Homelessness is expensive; it is better to invest in solutions
  --Homelessness is solvable; we have learned a lot about what works
  --Homelessness can be prevented
  --There is strength in collaboration and USICH can make a difference
    The process to create this Plan was designed to be transparent and 
provide multiple opportunities for input, feedback and collaboration. 
USICH provided the framework and principles to all key stakeholders for 
public comment prior to the drafting of the Plan. USICH has invested 
significant resources and time to secure public comment into the 
development of the Plan. This comment period occurred from early 
February through March 22, 2010. Through regional stakeholder forums, 
phone calls, and listening sessions close to 1,000 people gave input. 
In addition, USICH posted a public comment Web site that received 
nearly 8,000 visits and over 2,000 comments. The input from these 
sessions was valuable and has been incorporated into the development of 
the Plan. We look forward to sharing the Plan with you soon.
                               conclusion
    Highlighting the importance of ending homelessness, President 
Obama's recent fiscal year 2011 budget request for targeted homeless 
assistance programs is an 11.5 percent increase over fiscal year 2010 
and the largest ever by a President. Furthermore, the proposed fiscal 
year 2011 budget request for these programs at the VA represents a 49 
percent increase. The budget proposal reflects a strong commitment by 
the administration to prevent and end homelessness.
    The submission of the Plan to Congress is the launching of a 
collaborative implementation process. The key will be the 
implementation from stakeholders ranging from the advocacy community, 
State and local government, and the non-profit and private sectors.
    I would like to echo Secretary Donovan's and Secretary Shinseki's 
appreciation that the progress made on ending homelessness would not 
have been possible without the resources provided by you, as well as 
your personal commitment to the issue. National leadership on this 
issue is needed now more than ever. In all of my years working to end 
homelessness, I have never been more hopeful of the possibility to put 
an end to it. Chairwoman Murray, Chairman Johnson, Ranking Members Bond 
and Hutchison, and members of the subcommittees, I appreciate the 
opportunity to speak to you today about veterans' homelessness. I look 
forward to working with you on ending homelessness for veterans as well 
as for all others through the Federal Strategic Plan to Prevent and End 
Homelessness. Our work is cut out for us, but I am buoyed by the 
commitment that has been shown by your subcommittee, by you personally, 
by Secretaries Donovan and Shinseki and by the President. By working 
together, breaking down silos at the Federal, State and local levels, 
we can and will make progress. I look forward to your questions. Thank 
you.

    Senator Murray. Thank you very much.
    Mr. Norman.
STATEMENT OF STEPHEN NORMAN, EXECUTIVE DIRECTOR, KING 
            COUNTY HOUSING AUTHORITY, SEATTLE, 
            WASHINGTON
    Mr. Norman. Chairman Murray, Chairman Johnson, Ranking 
Member Bond, Ranking Member Hutchison, and distinguished 
members of the subcommittee, I have the privilege of serving as 
the executive director of the King County Housing Authority. 
The authority serves the 1.2 million people living in 
communities surrounding the city of Seattle. Last night, an 
estimated 1,700 veterans were homeless on our streets or in our 
shelters.
    I also serve as vice president of the Council of Large 
Public Housing Authorities, whose members administer 35 percent 
of the HUD-VASH vouchers authorized over the past 3 years. I am 
honored to be here today and thank you for the subcommittee's 
commitment to ending homelessness among those who have served 
our country. In particular, I would like to acknowledge the 
tremendous leadership role played by Senator Murray, both in 
Washington State and nationally.
    The housing authority community is strongly supportive of 
the VASH program. First, it is a major tool in local efforts to 
end homelessness among veterans in 5 years, a goal that housing 
authorities share with Congress, this administration, and our 
local communities. Studies have clearly shown that close 
coordination of housing and support services is the key to 
successfully stabilizing chronically homeless individuals.
    Second, HUD-VASH represents an important model, combining 
HUD resources with mainstream services, an approach that must 
be replicated with other Federal departments, such as HHS and 
Labor, if we are to successfully address the broader issue of 
homelessness in our communities.
    I am here today to tell you that the HUD-VASH program is a 
success. It is not housing our veterans at the rate at which we 
would like, success is not uniform around the country, and 
significant improvements can be made to the program. But the 
basic premise is sound, and there are thousands of veterans now 
living in safe, decent housing and getting their lives together 
because of it.
    In King County, our authority has partnered closely with 
the Seattle VA medical center. I have high praise for the 
dedicated line staff that are providing direct services to our 
veterans. The authority received an initial allocation of 53 
vouchers in May 2008 and by August 2009 was fully leased up.
    The veterans that we are housing struggle with significant 
disabilities. In addition, many have credit and criminal 
histories that have made private landlord acceptance, even with 
a section 8 voucher, difficult and time consuming.
    We look at two key statistics in evaluating success. First, 
what we call the shopping success rate. I am pleased to report 
that all of our voucher recipients were able to successfully 
lease housing on the private market. The time from receipt of 
the voucher to move-in averaged 41 days.
    A second key outcome is housing stability. At present, only 
2 of these initial 53 individuals have lost their housing, a 
retention rate of 96 percent.
    A second tranche of 52 vouchers was received in September 
2009. Ninety-eight percent of those vouchers have been issued, 
and over one-half of those vouchers are now leased up. The 
program is gaining momentum.
    A key element in the success of the program has been 
communication. Very early in the process, we developed a 
memorandum of understanding with the VA that laid out 
respective roles and expectations. Program staff met on a 
regular basis to evaluate progress and address operational 
issues. This approach, involving open, ongoing, and structured 
dialogue, distinguishes successful VASH programs around the 
country.
    A number of areas have emerged, however, where we believe 
that the program can be strengthened. Time does not allow me to 
go through these in detail. I refer you to the written 
testimony.
    But, in summary, first, the greatest frustration from the 
perspective of housing authorities has been the lack of a 
prompt and steady pipeline of referrals. Our understanding is 
that this delay, for the most part, has been caused by the need 
for local VA medical centers to hire additional caseworkers 
before moving forward with new referrals.
    This front-end lag is repeated with each new appropriation. 
The VA should be empowered to initiate the hiring process 
earlier, or the length of time it takes to bring new case 
managers on board needs to be shortened.
    Second, robust cross-training of VA and housing authority 
staff is needed. VA staff in particular requires training in 
section 8 program eligibility requirements and in providing 
housing search assistance. Training, stronger local 
communication protocols, and the identification and 
dissemination of best practices need to be institutionalized on 
the national level.
    Third, even with a section 8 voucher, VASH clients need 
additional resources to pay screening fees, provide security 
and utility deposits, and buy a modest amount of furniture. A 
small flexible allocation to the VA to address client move-in 
needs would go a long way to expediting the rental process.
    Fourth, the VA needs to consider more extensive involvement 
of community-based service providers in implementing the HUD-
VASH program. These groups can be essential in providing 
outreach to homeless veterans who are not presently being 
served by the VA system, in assisting in housing search, and in 
providing direct case management services. Contracting with 
outside providers may also provide a partial solution to the 
log-jam caused by delays in internally staffing up at the VA.
    Fifth and this is a critical one. KCHA administers over 
2,000 units of scatter-site housing for households with 
disabilities, and we have found that it is essential to have a 
range of housing available to support different household 
needs. The creation of more site-based supportive housing--
typically defined as housing developed by nonprofit service 
providers with on-site services--will be necessary to make VASH 
succeed.
    Site-based supportive housing provides a vital additional 
layer of support to help assure that individuals remain housed 
successfully. Local service providers tell us that up to 50 
percent of chronically homeless veterans could benefit from 
this approach.
    The ability to project base HUD-VASH vouchers is a critical 
element in developing supportive housing. And HUD, to its 
credit, has been flexible and responsive in helping to 
facilitate this. More work is required, however, to create an 
adequate pipeline of supportive housing.
    Sixth, a degree of ambiguity continues to persist regarding 
the question of appropriate targeting. Many homeless veterans 
do not fit neatly into the program and treatment boxes we have 
created. A Housing First approach, which has been utilized 
effectively in stabilizing chronically homeless individuals, is 
beginning to be adapted more broadly by the VA. Housing First, 
coupled with harm reduction, may be the only way to initially 
engage and stabilize a sizable portion of our street 
population.
    Finally, veterans living on our streets suffer a broad 
array of disabilities. A flexible funding approach that 
empowers local programs to allocate service resources and 
adjust case management ratios to reflect individual client 
needs should be encouraged. Additional partnerships with local 
providers, particularly around site-based supportive housing 
opportunities, may offer a partial solution to this.
    The HUD fiscal year 2011 budget calls for a moratorium on 
new HUD-VASH vouchers. I believe it is prudent in this 
difficult funding environment to only ask for funds that are 
immediately needed. I note, however, that many locales around 
the country will fully lease up their 2010 voucher allocation 
before 2012 budget is enacted.
    In King County, we anticipate that we will have exhausted 
our available HUD-VASH vouchers by January 2011. To close our 
front door, stand down, only to restart the lease-up process a 
year later, makes no sense operationally. Of the 1,700 homeless 
veterans in King County, one-half are chronically homeless. If 
we are serious in our commitment to addressing this issue 
within 5 years, we need to sustain the momentum, the 
relationships, and the programs we have developed.

                           PREPARED STATEMENT

    While it may not be necessary to fund a full round of HUD-
VASH vouchers in 2011, it will be important to assure that 
there is an ongoing supply of new vouchers for those locales 
that are efficiently utilizing their present allocations, 
ensuring that the existing progress can be sustained and built 
upon.
    Thank you again for your efforts on behalf of veterans.
    [The statement follows:]
                  Prepared Statement of Stephen Norman
    Chairman Murray, Chairman Johnson, Ranking Member Bond, Ranking 
Member Hutchison, and Distinguished Members of the Committee: My name 
is Stephen Norman and I am the executive director of the King County 
Housing Authority. The Authority serves the metropolitan region 
surrounding the city of Seattle, comprising a series of urban and 
suburban communities that are home to over 1.2 million people. Last 
night an estimated 1,700 veterans were homeless on our streets or in 
our shelters.
    I also serve as vice president of the Council of Large Public 
Housing Authorities, whose members administer 35 percent of the VASH 
vouchers authorized over the past 3 years.
    I am honored to be here today and thank you for the subcommittee's 
commitment to ending homelessness among those who have served our 
country. In particular I would like to acknowledge the tremendous 
leadership role played by Senator Murray both in Washington State and 
nationally.
    The Housing Authority community is strongly supportive of the VASH 
program:
    First.--It is a major tool in local efforts to end homelessness 
among veterans in 5 years, an objective that Housing Authorities share 
with Congress, this administration and our local communities. Studies 
have clearly shown that close coordination of housing and support 
services is the key to successfully stabilizing chronically homeless 
individuals.
    Second.--VASH represents an important model, combining HUD's 
housing programs with resources from a mainstream service system, an 
approach that must be replicated with other Federal departments such as 
HHS and Labor if we are to successfully address the broader issues of 
homelessness in our communities.
    This partnership carries with it both enormous promise and new 
challenges arising from the need to coordinate between programs with 
significantly different focuses, administered by bureaucracies that 
speak profoundly different languages.
    I am here today to tell you, however, that the VASH program is a 
success. It is not housing our veterans at the rate at which we would 
like, success is not uniform around the country, and I believe that 
there are significant improvements that can be made to the program, but 
the basic premise is sound, and there are thousands of veterans now 
living in safe, decent housing and going about the task of getting 
their lives together because of it.
    In King County, our Authority has partnered closely with the VA's 
Puget Sound Health Care System, Seattle Division, to address local 
needs. I have high praise for the dedicated line staff of the VA who 
are providing direct services to our veterans.
    The Authority received an initial allocation of 53 vouchers in May 
2008, and by August 2009 was fully leased up. The veterans that we are 
housing struggle with significant disabilities. Many have bad credit 
and criminal history issues that have made brokering private sector 
landlord acceptance, even with a section 8 voucher, difficult and time 
consuming.
    We look at two key statistics in evaluating success. First, what we 
call the shopping success rate. All of our initial voucher recipients 
were able, some with considerable assistance, to successfully lease 
housing on the private market. The time from receipt of the voucher to 
move-in averaged 41 days. A second key outcome is housing stability. At 
present only 2 of these initial 53 individuals have lost their housing, 
a retention rate of 96 percent.
    A second award of 52 vouchers was received in September 2009. Over 
one-half of those vouchers are now leased up.
    A key element in the success of the program has been communication. 
Very early in the process the Seattle and King County Housing 
Authorities developed an interagency memorandum of understanding with 
the VA that laid out respective roles and expectations. Program staff 
from the different agencies meet on a regular basis to evaluate 
progress and address operational issues. This approach, involving open, 
on-going and structured communication, characterizes the most 
successful VASH programs around the country.
    A number of areas have emerged, however, where we believe that the 
program can be strengthened:
    First.--The greatest frustration from the perspective of Housing 
Authorities nationally in quickly leasing up these vouchers has been 
the lack of a prompt and steady pipeline of referrals. Our 
understanding is that this delay, for the most part, has been caused by 
the need for local VA Medical Centers to hire additional caseworkers 
before they move forward with new referrals. This front-end lag is 
repeated with each new appropriation. A mechanism needs to be developed 
to either enable the VA to initiate the hiring process earlier or to 
shorten the length of time it takes to bring new case managers on board 
so that the program can hit the ground running.
    Second.--Robust cross-training of VA and Housing Authority staff 
needs to take place. As I mentioned before, both the language and 
cultures are profoundly different. VA staff, in particular, need 
training in understanding the section 8 program eligibility 
requirements and in providing housing search assistance. In many 
locales across the country, including Minneapolis and Los Angeles, 
housing authority staff are now actively engaged in training their VA 
counterparts. This kind of training, stronger local communication 
protocols and the identification and dissemination of best practices 
needs to be institutionalized on the national level.
    Third.--Even with a section 8 voucher, VASH clients need additional 
resources to pay screening fees, provide security and utility deposits 
and buy a modest amount of furniture. The Seattle region is somewhat 
unique in having passed a levy several years ago specifically 
dedicating a portion of the local sales tax to veterans' issues. This 
has enabled our VASH program to tap into local funds to address these 
needs. In other communities such as San Diego, Homelessness Prevention 
and Rapid Rehousing Program (HPRP) funds are being utilized. This 
coordination of other HUD funds has been very helpful, but does not 
provide a permanent fix as HPRP was funded under the ARRA legislation 
and is not on-going. A small flexible allocation to the VA to address 
client move-in needs would go a long way in expediting the rental 
process.
    Fourth.--The VA needs to consider the more extensive involvement of 
community-based service providers in implementing the VASH program. 
These groups can be essential in providing outreach to homeless 
veterans who are not presently being served by the VA system, in 
assisting in housing search, as they are currently doing in Washington, 
DC and Oakland, and in certain instances, particularly in supportive 
housing already being managed by a service provider, in providing the 
direct case management services. Contracting with outside providers may 
also be one partial solution to addressing the log-jam caused by delays 
in internally staffing up at the VA.
    Fifth.--KCHA currently administers over 2,000 units of scatter-site 
housing for households with disabilities and has found that it is 
essential to have a range of housing types available to successfully 
support different household needs. The creation of more site-based 
supportive housing--typically defined as housing developed by non-
profit service providers with on-site services--is an important missing 
piece of the puzzle. Supportive housing is independent living with what 
we like to call a concierge level of services in the building--a vital 
additional layer that helps to assure that individuals remain 
successfully housed. Local service providers actively engaged with 
homeless veterans tell us that they believe that up to 50 percent of 
chronically homeless veterans could benefit from this approach. The 
ability to project-base VASH vouchers is a critical element in 
developing supportive housing and HUD to its credit has been flexible 
and responsive in helping to facilitate this.
    An unresolved challenge to project-basing, however, is the matter 
of timing. In order to assist with the financial underwriting of new 
housing, project-based vouchers need to be committed in the pre-
development stage of a project. It typically takes 18 to 24 months for 
this housing to actually come on line. In order to avoid placing funded 
vouchers on the shelf for an extended period of time, a mechanism needs 
to be developed to enable the forward commitment of future allocations. 
This will entail some level of certainty regarding the commitment of 
additional out-year vouchers and services, and should only be in-place 
until production has geared up to desired levels. Such an approach, 
however, is crucial for jump-starting the pipeline of supportive 
housing needed to effectively address this issue, while assuring that 
vouchers already funded are put to immediate use.
    Sixth.--A degree of ambiguity persists in this program regarding 
the question of appropriate targeting. Many homeless, including 
homeless veterans, do not neatly fit into the program and treatment 
boxes we have created. A ``housing first'' approach, which is being 
utilized very effectively around the country in stabilizing chronically 
homeless individuals, is beginning to be adopted more broadly by the 
VA. I realize that this model may be difficult to reconcile with the 
traditional VA focus on success within its treatment programs. Housing 
First, however, coupled with harm reduction, may be the only way to 
initially engage and stabilize a sizable portion of our street 
population.
    Seventh.--Veterans living on our streets suffer a broad array of 
disabilities including PTSD, traumatic brain injuries, depression and 
chemical addiction. The case management ratio established by the VA 
sets an across the board ratio of one case manager to every 35 clients. 
I respectfully suggest that local VA systems need more flexibility in 
matching case-load ratios to their client base. Some individuals will 
need more support, some less. Some will improve, some will get worse. A 
flexible funding approach that empowers local programs to allocate 
resources as needed should be considered. This will be particularly 
critical as the VASH program seeks to serve less engaged street 
homeless and to assure landlords that adequate response capacity is 
available to deal with individuals in crisis once they have been 
housed. An increased level of partnership with local providers, 
particularly around site-based supportive housing opportunities, may 
offer a partial solution to this.
    The HUD fiscal year 2011 budget calls for a moratorium on new VASH 
vouchers, citing a backlog in unleased vouchers and a need to focus on 
the administration of the program. I believe it is prudent in a 
difficult funding environment to only ask for funds that are 
immediately needed. I note, however, that progress on leasing up 
existing vouchers is uneven. Some locales are struggling while others 
will fully lease up their 2010 voucher allocation before a 2012 budget 
is enacted. In addition, increased focus, in no small part due to 
hearings like this one, should significantly increase the learning 
curve and voucher utilization over the next 6 to 9 months.
    In King County we anticipate that we will have exhausted our 
available VASH vouchers by January 2011. To then stand-down and close 
our front-door, only to restart the lease-up process a year later, 
makes no sense operationally. Of the 1,700 homeless veterans in King 
County, one-half are chronically homeless. If we are serious in our 
commitment to significantly address this issue within 5 years we need 
to sustain the momentum, the relationships and the program we have 
developed. While it may not be necessary to fund a full round of VASH 
vouchers in fiscal year 2011 it will be important to assure that there 
is a continued supply of new vouchers targeted to those locales that 
are efficiently utilizing their present allocations so that the 
existing progress be sustained and built upon.
    Thank you again for the opportunity to report back on this program 
and I will be happy to answer any questions you may have.

    Senator Murray. Thank you very much.
    Mr. Mike Brown.
STATEMENT OF MIKE BROWN, ASSISTANT PROGRAM AND CASE 
            MANAGER, CORPS OF RECOVERY DISCOVERY, 
            VALLEY RESIDENTIAL SERVICES, WALLA WALLA, 
            WASHINGTON
    Mr. Brown. Good morning, everybody.
    My name is Mike Brown, and I am truly honored to be here 
today. I would like to personally thank Senator Patty Murray 
for inviting me to travel here from Walla Walla, Washington, to 
testify at this hearing.
    I am a 54-year-old former Vietnam-era Army veteran. I came 
from a military background. My father was a career Air Force 
fighter pilot in Korea and Vietnam.
    In 1994, I was a happily married father of two. I worked as 
a Transit driver for the city of Kennewick, Washington, when I 
found methamphetamine. Due to that relationship, it did not 
take me long to lose everything--my job, my family, my dignity, 
and my home.
    The next 9 years I spent using, on the streets and avoiding 
the law. Finally, at my lowest point, in 2005 a Superior Court 
judge gave me a last chance to get help, or I was facing 
prison.
    In late 2005, I sought help at the Walla Walla VA Medical 
Center in Walla Walla, Washington, where I learned about 
addiction and the things I needed to change. The first thing I 
had to do was surrender and accept help. After graduating from 
treatment, I went to the Corps of Recovery Discovery, which we 
call CORD--it is a grant per diem transitional housing 
program--and started pulling my life together. I spent 2 years 
there, learning how to live again and become a functional part 
of society. I moved into my own apartment in 2007 and started 
working full time for the CORD program.
    Since 2005, I have gone from living on the streets, eating 
out of dumpsters, to living independently, working full time. 
And this past weekend, I was able to give my daughter away at 
her wedding, which was one of the proudest moments of my life.
    Through a lot of hard work, I now am an assistant program 
manager and case manager, helping other veterans regain their 
lives back and navigating the same road. The difference for the 
vets coming behind me is now there is a HUD-VASH voucher to 
enable them to attain housing in a much quicker and affordable 
way.
    We refer those veterans that are ready to transition to the 
other part of our team at the VA for application of those 
vouchers. The wait for those vouchers has been reasonable and 
timely. In my housing unit alone, there are seven veterans who 
have benefited from the vouchers. This has enabled them to be 
on their own and continue to move forward.
    Some are working full time. Some are attending higher 
education. They are all doing well and are making positive 
changes toward their goals.
    One of the barriers in our small community is the lack of 
gainful employment that pays a living wage. The vouchers are a 
huge benefit to enable these veterans to independent living.

                           PREPARED STATEMENT

    I personally would like to thank all the other members on 
this panel. I do look forward to sharing more about my 
experiences with veterans. If there are any questions, I will 
do my best to answer them and once again, thank you all for 
allowing me to attend this important hearing.
    [The statement follows:]
                    Prepared Statement of Mike Brown
    My name is Mike Brown, and I am truly honored to be here today. I 
would like to personally thank Senator Patty Murray for inviting me to 
travel here from Walla Walla, Washington to testify at this hearing.
    I am a 54 year old former Vietnam era Army veteran. I came from a 
military background. My father was a career Air Force fighter pilot in 
Korea and Vietnam. In 1994 I was a happily married father of two. I 
worked as a Transit driver for the city of Kennewick, Washington when I 
found methamphetamine. Due to that relationship, it did not take long 
to lose everything. My job, my family, my dignity and my home. The next 
9 years I spent using, on the streets and avoiding the law. Finally at 
my lowest point in 2005 a Superior Court Judge gave me a last chance to 
get help or I was facing prison.
    In late 2005 I sought help at the WWVA Medical Center in Walla 
Walla, Washington. Where I learned about addiction, and the things I 
needed to change. The first thing I had to do was surrender, and accept 
help. After graduating from treatment I went to the Corps of Recovery 
Discovery (CORD) a grant per diem transitional housing program and 
started pulling my life together. I spent 2 years there, learning how 
to live again and become a functioning part of society. I moved into my 
own apartment in 2007 and started working full time for the (CORD) 
program. Since 2005 I have gone from living on the streets, eating out 
of dumpsters to living independently, working full time and this past 
weekend I was able to give my daughter away at her wedding which was 
one of the proudest moments of my life.
    Through a lot of hard work I now am an assistant program manager 
and case manager helping other veterans regain their lives back and 
navigating the same road.
    The difference for the vets coming behind me is now there is HUD-
VASH vouchers to enable them to attain housing in a much quicker and 
affordable way.
    We refer those veterans that are ready to transition to the other 
part of our team at the VA for application for those vouchers. The wait 
for the vouchers has been reasonable and timely.
    In my housing unit alone, there are seven veterans who have 
benefited from the vouchers. This has enabled them to be on their own 
and continue to move forward. Some are working full time; some are 
attending higher education and are able to live within their means. 
Currently they all are doing well, and making positive changes toward 
their goals.
    One of the barriers in our small community is the lack of gainful 
employment that pays a living wage. The vouchers are a huge benefit to 
enable these veterans to live independently.
    I personally would like to thank all the other members on the 
panel. I do look forward to sharing more about my experiences with 
veterans. If there are any questions I will do my best to answer them.
    Once again, thank you all for allowing me to attend this important 
hearing.

    Senator Murray. Thank you very much.
    Thank you to all of you. And Mr. Brown, let me thank you in 
particular for all you have gone through and the courage in 
coming here and sharing it and encouraging us to continue to do 
the right thing. I really appreciate it.
    Mr. Brown. Thank you. Thank you for all you do.
    Senator Murray. You have come a long way, and you are now 
working as a case manager with other veterans who face the same 
challenges that you did. And I was wondering if, as a case 
manager, you could share with us some of the challenges that 
veterans face in getting into housing so we can truly 
understand what the barriers are.
    Mr. Brown. Well, when I graduated from the transitional 
program, there wasn't the voucher system. Obviously, criminal 
history is a tough one. I was able to find a landlord that took 
a chance on me.
    Veterans that are trying to get their own place, they have 
mental health issues, paranoia, PTSD, all those issues. So it 
is really hard for them to even move into another place, and I 
think that, and in our community, gainful employment is a tough 
one. I struggle today, but I like where I am at and money is 
not why I am doing this.
    Senator Murray. I am always curious to ask a veteran who 
has taken some time to get help, but has gotten help. A lot of 
veterans resist asking the VA for help. Can you shed any light 
on why that is?
    Mr. Brown. Well, just in my experience, I think they are 
just proud. I think that is what it is. For myself, I was 
proud, pride. I knew I needed help, but I didn't know how to 
ask.
    Once they do ask, it seems to break the barriers, and they 
do get the help they need. It is the ones that accept the help 
are the ones that succeed.
    Senator Murray. Thank you. I really appreciate your 
insight.
    Mr. Brown. Thank you.
    Senator Murray. Mr. Norman, you listened to the VA and the 
HUD both testify this morning about some of the changes that 
they are planning to make and how they are going to address 
this. What do you think is the greatest problem that the 
administration needs to address first to improve HUD-VASH?
    Mr. Norman. I think that we find that there are a 
considerable number of veterans who will not necessarily thrive 
in scatter-site apartments, which is essentially what you get 
with a section 8 voucher. The project basing of the vouchers 
and the site-based supportive housing with what we like to call 
a concierge level of services--which keeps an eye on the front 
door, is there to observe signs of folks who are starting to 
destabilize, and where you have the peer support that 
characterizes good supportive housing--is critical.
    To create that inventory of supportive housing is going to 
take more time and more resources because you are essentially 
looking to create the housing or acquire and rehab housing for 
this purpose. And I think the flip side to this scatter-site 
venture program, which is working effectively and quickly, is a 
more robust pipeline of supportive housing being developed by 
the nonprofit providers in partnership with the VA.
    Senator Murray. In your situation, you are effectively 
using these HUD-VASH vouchers. That experience hasn't been 
countrywide in some other places. In your experience with other 
PHAs, what are you doing that is working right that they need 
to be doing?
    Mr. Norman. Well, I would preface this by saying that as I 
think Secretary Donovan said, there is a learning curve, and it 
is beginning to pay fruit. So the feedback that I have gotten 
from housing authorities must be prefaced by the fact that 
later feedback is that the situation is getting better.
    I think the need to cross-train VA staff on how to 
effectively work on housing search, to understand that once 
they were in the VA management, case management program, had 
been referred in for a voucher that it was not the end of the 
process. It was really the beginning. And the ability to work 
with them to help them successfully acquire housing is an area 
which is going to need continued focus.
    Senator Murray. Okay. Thank you.
    And Ms. Poppe, the face of homeless veterans is changing. 
We see more women veterans today. We see more veterans with 
children today. I wanted to ask you what recommendations you 
had to the VA to help improve some of its existing programs or 
what it needs to do to really deal with the changing faces we 
see who need housing.
    Ms. Poppe. Chairman, I really appreciate the opportunity to 
respond to that question because it is something that really 
pulls at me is that for years, as we have looked at the face of 
homeless veterans, it has largely been single men. But as you 
note, it is increasingly women, and increasingly, it is women 
who have come into homelessness with their children.
    A concern I would have is if we think the old models will 
work for this population, they simply will not be successful. 
To meet the needs of women, and particularly women with 
children, we need a response that is very definitely prevention 
based and that it is not one that involves the necessity of 
bringing women and children into a shelter or even a 
transitional housing environment. It is the place where I 
believe the rapid re-housing and the supportive housing models 
will work much more successfully.
    What we know through 20 years of experience, as well as 20 
years of literature, is that children who experience 
homelessness and come to emergency shelters are very much 
disrupted by that experience. And it creates a trauma in their 
lives that continues beyond the time and as they become adults. 
So everything we must do is to prevent these women, these women 
with their children from becoming homeless and having to enter 
into whether it is a community-based shelter environment or it 
would be a program, an emergency response basis.
    It is much better to use rapid re-housing, supportive 
housing, and prevention-based models because I would not want 
what we create for that response to be something that we have 
found to be so unsuccessful across the country in really 
getting effective responses, particularly to children.
    Senator Murray. Thank you very much.
    Senator Johnson.
    Senator Johnson. Ms. Poppe, we have heard from two 
departments on how they are collaborating to bring housing and 
medical services together to assist homeless vets. Can you talk 
a bit about how we can improve job training and employment 
programs for veterans?
    Ms. Poppe. Senator Johnson, thank you for that question as 
well.
    We have seen tremendous collaboration occurring between HUD 
and the VA and getting a greater understanding of the 
respective roles and how they work together. I believe that the 
current processes that we have been thinking about, how when we 
apply employment and training services to homeless veterans has 
been that that is a first thing to be done, and then we will 
get to the housing phase.
    And as we are moving toward a Housing First model, it seems 
that what we need are employment and training programs that 
work more effectively in the Housing First model in that as a 
veteran is able to move directly from the streets or in 
shelters to a HUD-VASH unit, that they would be able to access 
employment and training services at that point and not have it 
be linearly sequenced in just the opposite way.
    I have been doing this work for a really long time, and at 
the beginning, that is what we thought is that first you had to 
get the employment and training, and then you kind of graduated 
to housing. I think what we are seeing is the importance is if 
you get housing, accomplishment of education and training 
subsequent to housing makes much greater sense. And we will 
need to think together as to how those programs get aligned in 
a way that permits a Housing First model to work with the 
education and training program.
    Senator Johnson. Thank you and I don't have anything 
further.
    Senator Murray. Senator Bond.
    Senator Bond. Thank you very much, Madam Chair.
    First, to Mr. Brown, I again congratulate you and 
compliment you on dealing with a problem and finding out how to 
help and then coming back to help others who have that problem. 
And we particularly appreciate your coming here.
    You outlined many of the problems that have been of great 
concern to us. I have worked for the last 5 or 6 years with 
many of my colleagues to improve the services for PTSD and TBI. 
The invisible injuries that we are finding as a result of the 
IEDs and the EFPs in Iraq and now Afghanistan are causing a 
huge new problem.
    What do you see in your work are the difficulties in 
dealing with people who may have PTSD? Is this a more 
challenging effort to deal with them?
    Mr. Brown. Thank you for the question.
    Yes, sir. It is. It is really difficult with the younger 
ones coming back from the current war we are in right now. What 
I see, the success is a little bit better with the Vietnam, the 
older veteran. The younger ones seem--there is a kind of a 
higher failure in our area.
    We do see success in them, but I don't know, from myself, 
it took me until I was 48 to actually accept help and believe 
in myself. And I think a lot of it is just they don't believe 
in themselves. And once they mix that with addiction, alcohol, 
it is almost twice the problem. So, and as far as getting them 
to believe that they can afford their own house or move into a 
house some day, that is a really tough, tough thing to do.
    It is getting better, though. I think with the HUD-VASH 
system, it is really being used a lot in Walla Walla.
    Senator Bond. Well, good. And we appreciate your being 
here.
    Mr. Brown. Thank you.
    Senator Bond. Mr. Norman, your points that you have laid 
out at the end of your paper are very helpful, and I tried in 
my opening comments to refer to some of your concerns. If this 
program, HUD had zero dollars for vouchers in the coming year, 
what would be the impact on the program and the staffing set up 
to handle it?
    Mr. Norman. Well, the impact on the program is that we 
would not be able to issue any more vouchers to new referrals. 
So, essentially, the front door to house some of the 800 
chronically homeless veterans in our community would stop.
    Senator Bond. In King County, you would be out of business 
there?
    Mr. Norman. That is correct. The staffing we have is 
associated with the ongoing maintenance of the voucher program. 
So we would not actually have to have----
    Senator Bond. So you do not have specific personnel 
allocated to the HUD-VASH program?
    Mr. Norman. No. No, sir, they are part of our baseline 
team.
    Senator Bond. Now you also mentioned the PTSD and the TBI. 
One of the things that we have tried to do is to remedy a 
tremendous vacuum or absence of mental health specialists in 
both the DOD and the VA, getting people who are trained to deal 
with these illnesses. They were way short, and we were trying 
all kinds of things to get more services. Are your PTSD/TBI 
voucher clients able to access the service that they require?
    Mr. Norman. Well, we are unable, sir, to make a clinical 
assessment as to how well they are being served.
    Senator Bond. Are they being served?
    Mr. Norman. They are connected in. And one of the strengths 
of the VA case management system, we believe, is that it 
connects them in to the larger VA support network. And Mr. 
Brown can probably talk more about that on a clinical level.
    Senator Bond. Okay.
    Mr. Norman. One point I would make is that the real metric 
that we look at is their ability to maintain housing. That is 
the one we could evaluate. And what we are seeing to date is a 
very high success rate in people being able to stay in housing 
once they have been placed.
    Senator Bond. Now that is, being a Missouri resident and a 
``show me,'' I like the bottom line. I am less interested in 
the inputs, but if you say the final test is staying in and it 
is working, that is good.
    Mr. Brown, any comments on the service available for----
    Mr. Brown. I think it is imperative that we refer them to 
the VA and they continue to meet with the VA even after they 
are in housing. I mean, that is imperative. And we are lucky in 
the little rural area we are, you can get to the VA walking 3 
minutes. So no matter where you are at in an apartment there, 
you can get to the VA real quick.
    So I think it is imperative. And the case manager for the 
HUD-VASH voucher also is a good thing. The VA case managers go 
to the houses, regularly meet with them, watch them, and 
obviously, they need to hook up with the VA.
    Senator Bond. But you are seeing only the younger ones with 
PTSD and TBI, the success rates, the bottom line that Mr. 
Norman referred to is not quite as good as the older, say, more 
mature veterans of your age and even as high as mine.
    Mr. Brown. Yes, you are right. I don't know if there is an 
easy answer. I really don't, you know, for the younger ones. I 
guess for me I didn't change until I was old, as I said. So 
maybe that is what it takes. Hopefully, they----
    Senator Bond. Well, there has got to be some good thing to 
happen with old age.
    Mr. Brown. Well, there you go.
    Senator Bond. I keep looking for that. I know, Ms. Poppe, 
we have been here a long time. Thank you very much.
    We have got the e-mail notice about the council on 
homelessness, and the plan is going to be a roadmap. Rather 
than having you try to describe it today, since we have kept 
everybody here for 2 hours, we will look forward to reading it, 
and my staff and I will look forward to following up with you. 
And we thank all of you for testifying.
    Senator Murray. Thank you.
    I just have one additional question for Mr. Brown. You and 
I were talking earlier this morning. You talked about the 
younger vets coming back, and I know I have met with many of 
them whose biggest barrier today is employment.
    You work with a program called CORD to help them get some 
skills. Can you describe that for us a little bit?
    Mr. Brown. Well, we work with resources. I mean, 
WorkSource, obviously, that--without the resources, we wouldn't 
be able to do what we do. So we do have a rec center. We have a 
fully functional machine shop, welding, and we are lucky in 
that way. We have a music room, instruments and music.
    I mean, these guys have skills that they probably haven't 
used in a long time. So it is really neat. I mean, we are 
lucky. We have 44 beds, and my boss is dedicated to helping 
veterans. So every bit of per diem money we get to run our 
program goes right back to the veterans. So the resources are 
wonderful.
    Senator Murray. And connecting them to some skills that 
they have is an important part of the connection.
    Mr. Brown. Yes, you bring out the skills that they have 
forgotten for so long. So we have one gentleman. He is missing 
a leg all the way up to the top, and he has been on the 
streets. He was a biker for a lot of years.
    And we took him into the machine shop, our wood working 
shop, and he built us benches and chairs that are just 
beautiful. I mean, he is like a master carpenter. And he just 
hid it from us. We didn't know. You know, we just gave him the 
tools and the materials, and 2 days later, we saw this 
beautiful, beautiful thing he created.
    And we see that a lot with music. A lot of our veterans go 
in there just to meditate. We have eye rest, which is a new 
thing that we are trying to use for guys with PTSD to meditate 
and to calm down.
    My boss also does silk screening. We do auto body as well. 
So we are lucky. We are very lucky that we have those 
resources.
    Senator Murray. It seems to me that part of what you are 
doing is trying to find something that the vet can be proud of, 
and that will help keep them stable. Correct?
    Mr. Brown. Very much so. I mean, at the beginning, when I 
got in the program, it was more about addiction and alcoholism. 
And now with TBI, PTSD, we are finding veterans that don't 
suffer from that, but they need something to keep them busy.
    Senator Murray. Okay, very good.
    Mr. Brown. Thank you.
    Senator Murray. Well, I want to thank all three of you for 
coming and testifying today. This has been extremely helpful to 
both of our subcommittees as we now move forward and in the 
appropriations process to make sure we are providing the 
resources to continue to allow all of you to do the important 
work you do in your communities.

                         CONCLUSION OF HEARING

    So thank you very, very much. And with that, this hearing 
is recessed, to reconvene subject to the call of the Chair.
    [Whereupon, at 12:02 p.m., Thursday, May 20, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
